<html>
<title> - THE LONG ARM OF CHINA: EXPORTING AUTHORITARIANISM WITH CHINESE CHARACTERISTICS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                         THE LONG ARM OF CHINA:
                       EXPORTING AUTHORITARIANISM
                       WITH CHINESE CHARACTERISTICS
=======================================================================

                                 HEARING

                               BEFORE THE

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 13, 2017

                               __________

 Printed for the use of the Congressional-Executive Commission on China
 
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


              Available at www.cecc.gov or www.govinfo.gov
              
              
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-385 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="88eff8e7c8ebfdfbfce0ede4f8a6ebe7e5a6">[email&#160;protected]</a>               


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS
                    
                    



   Senate                                   House

MARCO RUBIO, Florida, Chairman       CHRIS SMITH, New Jersey, 
TOM COTTON, Arkansas                 Cochairman
STEVE DAINES, Montana                ROBERT PITTENGER, North Carolina
JAMES LANKFORD, Oklahoma             RANDY HULTGREN, Illinois
TODD YOUNG, Indiana                  MARCY KAPTUR, Ohio
DIANNE FEINSTEIN, California         TIM WALZ, Minnesota
JEFF MERKLEY, Oregon                 TED LIEU, California
GARY PETERS, Michigan
ANGUS KING, Maine

                     EXECUTIVE BRANCH COMMISSIONERS

                           Not yet appointed

                   Elyse B. Anderson, Staff Director

                 Paul B. Protic, Deputy Staff Director

                                  (ii)


                             C O N T E N T S

                              ----------                              

                               Statements

                                                                   Page
Opening Statement of Hon. Marco Rubio, a U.S. Senator from 
  Florida; Chairman, Congressional-Executive Commission on China.     1
Kalathil, Shanthi, Director of the International Forum for 
  Democratic Studies at the National Endowment for Democracy 
  (NED)..........................................................     4
Tiffert, Glenn, Ph.D., an expert in modern Chinese legal history 
  and a visiting fellow at Stanford University's Hoover 
  Institution....................................................     6
Richardson, Sophie, Ph.D., Director of China Research at Human 
  Rights Watch...................................................     8
Smith, Hon. Christopher, a U.S. Representative from New Jersey; 
  Cochairman, Congressional-Executive Commission on China........    20

                                APPENDIX
                          Prepared Statements

Kalathil, Shanthi................................................    34
Tiffert, Glenn...................................................    38

Rubio, Hon. Marco................................................    46
Smith, Hon. Christopher..........................................    47

                  Questions and Answers for the Record

Kalathil, Shanthi................................................    49
Richardson, Sophie...............................................    51

                       Submissions for the Record

Sharp Power: Rising Authoritarian Influence......................    56

Witness Biographies..............................................    77

                                 (iii)

 
                         THE LONG ARM OF CHINA:
                       EXPORTING AUTHORITARIANISM
                      WITH CHINESE CHARACTERISTICS

                              ----------                              


                      WEDNESDAY, DECEMBER 13, 2017

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:55 
a.m., in Room 301, Russell Senate Office Building, Senator 
Marco Rubio, Chairman, presiding.
    Also present: Representative Christopher Smith, Senator 
Angus King, and Senator Steve Daines.

  OPENING STATEMENT OF HON. MARCO RUBIO, A U.S. SENATOR FROM 
 FLORIDA; CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Chairman Rubio. Good morning. This is a hearing of the 
Congressional-Executive Commission on China. The title of this 
hearing is ``The Long Arm of China: Exporting Authoritarianism 
with Chinese Characteristics.''
    I apologize to the witnesses. It has been a pretty busy day 
this morning, and it is not even 11:00 yet.
    We are going to have one panel testifying today. The panel 
will feature Shanthi Kalathil, the Director of the 
International Forum for Democratic Studies at the National 
Endowment for Democracy (NED); Dr. Glenn Tiffert, an expert in 
modern Chinese legal history and a visiting fellow at Stanford 
University's Hoover Institution; and Dr. Sophie Richardson, 
Director of China Research at Human Rights Watch.
    I thank all of you for being here.
    Before we move to the topic at hand, I want to take a 
moment to recognize Ms. Deidre Jackson on the Commission's 
staff. After 38 years of government work, including nearly 16 
years at the Commission, this is her final hearing before 
retiring--hopefully to Florida.
    [Laughter.]
    Chairman Rubio. It will be at the end of this year.
    [Applause.]
    Chairman Rubio. We are very grateful to her for her 
faithful service and for her important contribution to this 
work.
    The focus of this hearing today is timely. This is an issue 
that merits greater attention from U.S. policymakers and that 
involves the efforts of the Chinese Communist Party, through 
its government, to conduct influence operations, which exist in 
free societies around the globe, and they are intended to 
censor critical discussion of China's history and human rights 
record and to intimidate critics of its repressive policies.
    Attempts by the Chinese Communist Party and the government 
to guide, buy, or coerce political influence and control 
discussion of sensitive topics are pervasive, and they pose 
serious challenges to the United States and our like-minded 
allies.
    The Commission convened a hearing looking at China's ``long 
arm'' in May of 2016, and the focus at that time was on 
individual stories from dissidents and rights defenders, 
journalists, family members of critics of the regime who shared 
alarming accounts of the intimidation, harassment, pressure and 
fear they felt as a result of their work. This was especially 
true for those who had family still living in China. This issue 
persists.
    Just recently, Chinese authorities reportedly detained over 
30 relatives of the U.S.-based Uyghur human rights activist 
Rebiya Kadeer, a frequent witness before this Commission. We 
will no doubt hear similar accounts when Dr. Richardson 
explores some of what Human Rights Watch documented in its 
recent report on China's interference at United Nations human 
rights mechanisms.
    Beyond that, we hope today to take a step back from 
individual accounts regarding China's ``long arm,'' and examine 
the broader issue of the Chinese Communist Party's influence 
around the world. What animates their efforts? What is their 
ultimate aim? What sectors or institutions are most vulnerable 
to this? And what can we do about it?
    Given the scope of this issue, we will only begin to 
scratch the surface here today. When examining these foreign 
influence operations, it is important we understand the 
Communist Party infrastructure that exists in support of this 
endeavor.
    The United Front Work Department is one of the Party 
agencies in charge of influence operations at home and abroad. 
The Chinese President elevated this entity's status in 2014, 
calling their work the ``magic weapon'' for the ``Chinese 
people's great rejuvenation.'' The UFWD is charged with 
promoting a positive view of China abroad and exporting the 
purported benefits of this authoritarian model.
    United Front officials and their agents, often operating 
under diplomatic cover as members of the Ministry of Foreign 
Affairs, develop relationships with politicians at the state, 
local and Federal level, and other high-profile or up-and-
coming foreign and overseas Chinese individuals to--in the 
words of Wilson Center Global Fellow Anne-Marie Brady--
``influence, subvert, and if necessary, bypass the policies of 
their governments and promote the interests of the CCP 
globally.''
    A key element in this long-arm effort has focused on 
information technology and internet governance or sovereignty, 
asserting national control of the internet and social media 
platforms not only in recent domestic cyber legislation and 
development plans, but also at international gatherings.
    So we look forward to Ms. Kalathil's testimony, which will 
further explore this important dimension of the Chinese 
government's efforts.
    China has developed tools to surveil social media and 
mobile phone texting platforms and to disrupt overseas websites 
that contain content the government finds politically 
sensitive. Earlier this year it was reported that real-time 
censorship of instant messaging platforms is now taking place. 
Private group chats are censored without users' knowledge.
    As it relates to China's long arm, the University of 
Toronto's Citizen Lab, a human rights and information 
technology research center, reported in mid-January of this 
year on Chinese government censors' work to prevent Tibetans 
inside and outside of China from discussing the Dalai Lama's 
major religious teachings in India in January 2017.
    The Chinese government is also clearly targeting academia. 
The Party deems historical analysis and interpretation that do 
not hew to the Party's ideological and official story as 
dangerous and threatening to its legitimacy.
    Recent reports of the censorship of international scholarly 
journals illustrate the Chinese government's direct requests to 
censor international academic content, something which 
Professor Tiffert will address.
    Related to this is the proliferation of Confucius 
Institutes, and with them insidious curbs on academic freedom. 
These are a major concern, an area which CECC cochairman, our 
cochairman here, Congressman Smith, has been sounding the alarm 
on for some time.
    Chinese foreign investment and development, which is slated 
to reach record levels with the Belt and Road Initiative, is 
accompanied by a robust political agenda aimed in part at 
shaping new global norms on development, trade and even human 
rights.
    There is much more that has been publicly reported in just 
the last few months, and even more that will likely never be 
known. The academic whose scholarly paper provides background 
on the banned Chinese Democratic Party or other politically 
sensitive issues refused a visa to conduct research in China, 
or the Hollywood studio that has to shelve film scripts with a 
storyline involving China's abuse of the Tibetan people, the 
Washington think tank that puts out policy papers critical of 
legislative initiatives that would negatively impact the 
Chinese government, all the while never revealing their 
financial ties with senior Chinese officials, or the American 
internet company willing to censor content globally in order to 
obtain access to the Chinese market.
    There are endless scenarios. Some, I think, have happened, 
some are happening, and some will continue to happen. And it 
relates directly to Chinese foreign influence operations in 
both their scope and in their reach.
    There is an important growing body of research on this 
topic.
    So without objection, we will keep the hearing record open 
for 48 hours to submit some additional relevant materials in 
that regard, including the executive summary of an important 
report by the National Endowment for Democracy, ``Sharp Power: 
Rising Authoritarian Influence,'' which outlines in part 
China's influence operations in young democracies including two 
of them in our own hemisphere in Latin America.
    [The executive summary/introduction to the report appears 
in the appendix.]
    Chairman Rubio. Each year, the Commission releases an 
Annual Report which painstakingly documents human rights and 
rule of law developments in China. China's Great Firewall, 
rights violations in ethnic minority regions, harassment of 
rights defenders and lawyers, suppression of free speech, 
onerous restrictions on civil society, these are the shameful 
markings of an authoritarian, one-party state.
    But to the extent that the same authoritarian impulses 
animate the Chinese government's efforts abroad, it directly 
threatens our most deeply held values and our national 
interests.
    Chinese leaders are engaged in the long game and it is 
something that policymakers in the United States, and with our 
like-minded allies, must take seriously.
    Congressman Smith is not here in attendance. He is in the 
middle of a hearing in the House but will be with us shortly.
    I also welcome Senator King. Do you wish to say anything 
for the record at the opening? If not, then we are going to 
welcome our witnesses.
    I guess we will begin with you, Ms. Kalathil, and just work 
down the row. I thank you, and I apologize again for our late 
start. But as I said, it is 11:00 and it feels like it is 5:00.
    [Laughter.]
    Chairman Rubio. Thank you for being here, all of you.
    [The prepared statement of Senator Rubio appears in the 
appendix.]

 STATEMENT OF SHANTHI KALATHIL, DIRECTOR, INTERNATIONAL FORUM 
    FOR DEMOCRATIC STUDIES, NATIONAL ENDOWMENT FOR DEMOCRACY

    Ms. Kalathil. Great. Thank you, Chairman Rubio and Senator 
King.
    It is a great opportunity to speak to this important topic 
alongside such expert colleagues.
    Today I will address China's outwardly directed efforts to 
shape expression and communication globally and the negative 
implications this poses for democracies.
    Consider, to begin with, a metaphor sometimes invoked to 
explain China's domestic approach to the internet, that of the 
walled garden. The garden is not devoid of color. Indeed, 
certain flowers are cultivated and allowed to bloom profusely, 
while those plants deemed weeds are yanked out by the root. In 
this way is the space pruned to fit the preferences of the 
master gardener.
    While metaphors are always imperfect, this one does convey 
important ideas about how the CCP approaches China's 
information, media and technology sector. These ideas also have 
relevance for its international approach. I will just briefly 
touch on three key aspects here.
    First, the technology. The so-called ``Great Firewall'' is 
dependent on an increasingly advanced system of not just 
censorship but comprehensive surveillance. It is estimated that 
there are 170 million CCTV cameras in place, many now enhanced 
with facial recognition technology, and 400 million new cameras 
planned in the next three years.
    The Wall Street Journal reported last week on people 
detained for stray comments made on private chats on the WeChat 
messaging platform. Government authorities can now identify 
citizens on the street through facial recognition, monitor all 
online behavior, and identify potential or even future 
dissenters and troublemakers.
    Second, it is not only about the technology. Beijing relies 
on individuals, corporations and institutions for not just 
censorship and self-censorship but the proactive shaping of 
norms, narratives and attitudes.
    Underpinning all of this activity is the third aspect, 
Beijing's core economic bargain, which consists of preferential 
treatment and implicit prosperity for those who respect 
Beijing's so-called ``red lines,'' and punishment for those who 
do not. And while Chinese internet and technology companies 
have sometimes a not straightforward relationship with the 
Party, they certainly understand this bargain.
    This combination of aspects results in a system that 
curtails freedom, suppresses dissent, and manages public 
opinion, reliant not on any individual element but on a 
principle of redundancy built into every layer.
    Why is this domestic approach relevant to our topic today? 
Because it is becoming evident that the CCP, under Xi Jinping, 
is intent on encompassing the rest of the world within its 
walled garden.
    This isn't to say that China seeks to control every facet 
of communication or that it wants to impose its exact model of 
authoritarian governance everywhere. But it is increasingly 
true that Beijing's technology ambitions, combined with its 
attempts to determine on a global scale the parameters of 
acceptable speech and opinion with respect to China, pose clear 
threats to freedom of expression and democratic discourse 
outside its borders.
    So how does the Chinese government apply its gardening 
techniques internationally? First, while it cannot control the 
infrastructure and technology of the global internet, Chinese 
companies are actively building out key telecommunications 
infrastructure in developing countries, raising questions about 
security and dissemination of censorship capabilities.
    And if China succeeds in dominating the emerging global 
market for data-enabled objects--also known as the Internet of 
Things--its approach to embedded surveillance may become the 
norm in places with weak individual privacy protections.
    Meanwhile, the same Chinese tech giants mentioned in that 
Wall Street Journal story are taking stakes in the firms that 
provide key global apps and services. Just last Friday, it was 
reported that WeChat's parent company, Tencent, and Spotify had 
taken minority stakes in each other. This follows earlier 
Tencent acquisitions of minority stakes in Snap, the parent 
company of Snapchat, and Tesla.
    Artificial intelligence companies such as iFlyTek pioneer 
the surveillance aims of the government through the use of big 
data and weak Chinese privacy standards, while also entering 
into deals with industry leaders such as Volkswagen and others.
    It is reasonable to ask whether Chinese firms with global 
ambitions plan to follow the same explicit and/or unspoken 
Party dictates with respect to data-gathering, surveillance, 
and policing of ``sensitive'' communication abroad as they do 
at home.
    These technological advances also dovetail with Beijing's 
efforts to shape the internet and other future technologies 
through key internet governance bodies and discussions, as 
Chairman Rubio mentioned. The Chinese government's initially 
derided World Internet Conference in Wuzhen succeeded this year 
in attracting high-level Silicon Valley participation, 
including Apple CEO Tim Cook. Importantly, it established the 
optic that the world's leading technology firms have blessed 
China's approach to the internet.
    I will briefly touch on some of these other aspects, the 
second of which is that it is never only about the technology. 
The Chinese government has spent tens of billions of dollars to 
shape norms, narratives and attitudes in other countries, 
relying on the cultivation of relationships with individuals, 
educational and cultural institutions, and centers of policy 
influence.
    This is detailed in our new report on sharp power.
    Finally, underlying all of this is China's carrot-and-stick 
contract with the rest of the world. The global walled garden 
approach would not be possible were governments, universities, 
publishers, Hollywood, technology and other companies not roped 
into this implicit and sometimes explicit bargain.
    Therefore, it is both timely and necessary for democratic 
governments and civil society to be proactive in asserting why 
norms such as transparency, accountability, and pluralism are 
critical to their interests.
    I will reserve the rest of my suggestions on that front for 
the Q and A.
    Thank you.
    Chairman Rubio. Thank you very much.
    [The prepared statement of Ms. Kalathil appears in the 
appendix.]
    Chairman Rubio. Dr. Tiffert, are you prepared? I think you 
are going to go next because he is closer to his PowerPoint. 
Thank you for being here.

  STATEMENT OF GLENN TIFFERT, Ph.D., VISITING FELLOW, HOOVER 
                INSTITUTION, STANFORD UNIVERSITY

    Mr. Tiffert. Thank you, Mr. Chairman, and distinguished 
members of the Commission.
    I am very pleased to be invited to speak at today's 
hearing. I have long followed the Commission and the work that 
it does.
    In recent years, technology has supercharged the dark art 
of agitprop--that combination of political agitation and 
propaganda Russian revolutionaries gave to the world more than 
a century ago.
    While attention now centers on how its devotees have 
exploited social media to sow mistrust, intimidate, provoke and 
polarize, for China such chicanery is but one facet of a much 
more ambitious program.
    The Chinese Communist Party is leveraging its economic 
muscle and the technologies of the information age to pursue a 
distinctively Leninist path to soft power. It depicts public 
opinion as a battlefield upon which a highly disciplined 
political struggle must be waged and won.
    Inspired by Mao's call to use the past to serve the present 
and to make foreigners serve China, the CCP is furthermore 
quietly exporting its domestic censorship regime abroad, 
enlisting observers everywhere, often without their knowledge 
or consent in an alarming effort to sanitize the historical 
record and globalize its own competing narratives.
    Its timing is impeccable. Economic and technological 
disruptions to our information ecosystem are eroding our 
capacity to detect, much less combat, this information war.
    Motivated by thrift and efficiency, many universities, in 
particular, are shedding old volumes and outsourcing growing 
parts of their collections to online providers, trusting these 
providers to provide full replacement value and to guarantee 
the integrity of their products. Much can go wrong with that 
bargain, particularly since many of these providers are market-
driven ventures subject to commercial pressures. They may 
adhere to different values, priorities, and standards of 
stewardship than traditional libraries and may be accountable 
to different constituencies.
    Furthermore, things can go spectacularly wrong when they 
confront the demands of a mercurial censorship regime and the 
authoritarian government behind it, as with the PRC.
    The providers who control those servers can silently alter 
our knowledge base without ever leaving their back offices, 
making one nondestructive edit after another, each propagating 
nearly instantaneously around the world.
    For censors, the possibilities are mouthwatering. Digital 
databases offer them dynamic fine-grained mastery over memory 
and identity. And in the case of China, they are capitalizing 
on this to engineer a pliable version of the past that can be 
tuned algorithmically to always serve the Party's present.
    As George Orwell once wrote, ``Who controls the past 
controls the future. Who controls the present controls the 
past.'' Consider, for instance, the dominant academic law 
journals published in the Mao-era PRC, which document the 
emergence of China's post-1949 legal system and the often 
savage debates that seized it. The online editions of these 
journals have been redacted in ways that distort the historical 
record but are largely invisible to the end user. The 
consequences are unsettling. The more faithful foreign scholars 
are to this adulterated source base and the sanitized reality 
it projects, the more they may be unwittingly serving China by 
promoting the agendas of the censors.
    Now what does this look like? I offer to you the first 
slide, an example of the table of contents from a leading 
Chinese law journal from the 1950s. On the left is the original 
scan of the original paper edition issued in the 1950s. To the 
right is the actual table of contents presented online.
    Now I've put red arrows to indicate the articles that are 
simply invisible. They're gone. They're missing from the online 
edition. This represents 30 of the journal's 72 pages, 
including the first 9 lead articles. They've vanished, been 
erased from the historical record.
    Using information technology, the Chinese government and 
its censors are sculpting this historical record in highly 
targeted ways, trimming away the inconvenient bits to produce 
exactly the shape they want.
    The stakes today are real. Consider, for example, Yang 
Zhaolong, one of the most brilliant legal minds of his 
generation. In the early Mao era, Yang and quite a few like him 
forcefully promoted a raft of concepts connected to the rule of 
law. But they paid a terrible price for making those arguments. 
Yang himself was branded a counterrevolutionary and spent 12 
years in prison.
    This presents very awkward background history for a regime 
that has, since, not only written the rule of law into its 
constitution, but also presents its policy of socialist rule of 
law with Chinese characteristics as a culmination of an 
originalist vision.
    And in these graphs I present to you the red lines indicate 
the historical record that has been erased from every issue of 
these journals over a period of several years. They have 
essentially eliminated the footprint of these individuals and 
the arguments they made in support of the rule of law 
historically in China.
    Now it's worth noting that the computational techniques I 
employed to analyze this censorship are doubled-edged weapons. 
They can be repurposed to automate and enhance the work of the 
censors.
    Simply by manipulating any of the parameters in my dataset, 
a censor can fabricate bespoke versions of the historical 
record, each exquisitely tuned to the requirements of the 
present. It's a very short hop, indeed, from the technologies 
that already dynamically filter our newsfeeds to the nightmare 
of Orwell's memory hole.
    This is an old-fashioned version of how they used to do 
that. This is a photo of the procession of Mao's funeral. One 
includes the Gang of Four. And then shortly after their arrest, 
the photo was reissued with the Gang of Four erased.
    To be clear, the censorship is directed foremost at 
controlling China's sense of itself. It is tendentiously 
distorting memory and identity. It is prejudicing China's 
possible futures and violating the trust of the people who use 
these sources.
    But insofar as we foreign observers are increasingly 
reliant on these censored sources and online providers, it's 
also enlisting us in the campaign to promote the Party's 
agenda. This is disinformation on a grand scale turbocharged by 
emerging technologies. And I expect that we will see much more 
of it around the world in coming years.
    Thank you very much.
    Chairman Rubio. Thank you.
    [The prepared statement of Mr. Tiffert appears in the 
appendix.]
    Chairman Rubio. Dr. Richardson.

 STATEMENT OF SOPHIE RICHARDSON, Ph.D., CHINA DIRECTOR, HUMAN 
                          RIGHTS WATCH

    Ms. Richardson. Thank you, Chairman Rubio and Senator King. 
Many thanks for the timely hearing and for your principled and 
persistent leadership on human rights issues in China. We also 
want to thank you for your strong statement on International 
Human Rights Day and another excellent report.
    In January 2017, Chinese President Xi Jinping gave a 
keynote speech at the Palais des Nations in Geneva. Although 
world leaders regularly give addresses there, few other 
occasions have seen the UN impose restrictions such as those 
instituted on this occasion.
    Before Xi's arrival, UN officials closed parking lots and 
meeting rooms, and sent home early many of the offices, 
approximately 3,000 staff. The UN also barred nongovernmental 
organizations from attending the speech.
    Just a few months later, in April, security officials at 
the UN headquarters, New York City, ejected from the premises 
Dolkun Isa, an ethnic Uyghur rights activist originally from 
China. Isa, who was accredited as an NGO participant, was 
attending a forum on indigenous issues when UN security 
confronted him and ordered him out of the building. No 
explanation was provided and Human Rights Watch queries to the 
UN spokesperson's office elicited no substantive information 
about the incident.
    The UN plays a crucial role in holding governments to their 
international human rights obligations and helping to protect 
human rights. And as a result, the UN's handling of these 
situations points to larger concerns about the treatment and 
protection of human rights activists critical of China as they 
seek to participate in UN efforts, and about China's attempts 
to thwart UN scrutiny of its own human rights record.
    Those mechanisms are intended to protect the rights of all, 
and they are now among the only means of redress for 
independent activists from the mainland. Taken individually, 
many of China's actions against NGOs might be viewed as an 
annoyance or an irritant. But taken together, they amount to 
what appears to be a systematic attempt to subvert the ability 
of the UN human rights system to confront abuses in China and 
beyond.
    As a UN member state and party to several human rights 
treaties, China engages with the UN human rights system. It is 
a member of the Human Rights Council, participates in reviews 
of its treaty compliance and universal periodic review process, 
and allows some, but not all, UN independent human rights 
experts to visit China.
    But even as it engages with those institutions, China has 
worked consistently and often aggressively to silence criticism 
of its human rights record before UN bodies, and has taken 
actions aimed at weakening some of the central mechanisms 
available there, which in turn poses a longer-term challenge to 
the integrity of the UN human rights system as a whole.
    In a September 2017 report, we detailed how Chinese 
officials have harassed activists, primarily those from China, 
by photographing and filming them on UN premises in violation 
of UN rules, and by restricting their travel to Geneva.
    Members of this commission need no reminding about the case 
of Cao Shunli.
    China has also used its membership on the UN's Economic and 
Social Council's NGO Committee to block NGOs critical of China 
from being granted UN accreditation, and it has sought to 
blacklist accredited activists.
    Behind the scenes, Chinese diplomats, in violation of UN 
rules, have contacted UN staff and experts on treaty bodies and 
special procedures, including behavior that has, at times, 
amounted to harassment and intimidation.
    China has also repeatedly sought to block or weaken UN 
resolutions on civil society, human rights defenders, and 
peaceful protests, including when they do not directly concern 
policy and practice in China.
    It has pushed back against efforts to strengthen some of 
the key mechanisms, notably, country-specific resolutions on 
grave situations like North Korea and Syria, and efforts to 
strengthen treaty-body reviews.
    During UN peacekeeping budget consultations earlier this 
year, China sought to slash funding for UN human rights 
officers who play a vital role in monitoring alleged human 
rights abuses in some of the world's most dangerous places.
    Since our report was released, Chinese officials in two 
separate UN sessions called out UN experts for raising 
individual cases from China, suggesting that doing so was a 
violation of their mandates.
    In September, China tied Saudi Arabia for the most mentions 
in an important UN report on reprisals by governments against 
activists who engage with UN human rights mechanisms.
    Recent Chinese efforts to spearhead UN initiatives such as 
presidential statements and resolutions at the Human Rights 
Council foreshadow a more active prominent role for China and 
give rise to concern about ways it will exercise its power.
    As a powerful P5 member of the UN Security Council, China 
has a particular weight on the Human Rights Council. It has 
played an influential role together with other members of self-
proclaimed like-minded groups, many of whom have poor human 
rights records.
    China is not alone in its obstructionist tactics, but it 
should not become a powerful role model for others that hope to 
hobble UN human rights bodies.
    Many of China's actions are directly at cross purposes with 
UN efforts to improve its human rights system. And while UN 
officials have at times pushed back against improper Chinese 
pressure or steadfastly ignored it, in other instances they 
have capitulated or soft pedaled their concerns, presumably to 
avoid confrontation with China.
    Unless the UN and concerned governments can halt China's 
encroachments, the UN's ability to help protect rights around 
the globe is at risk, not only in Geneva.
    We have several recommendations for you, but I just want to 
highlight three very quickly.
    The first is that China's next review under the universal 
periodic review process is in 2018. We urge that the commission 
consider a letter to the Chinese Ambassador here spelling out 
the ways in which independent Chinese civil society should be 
able to participate in that process.
    In the context of U.S. support to UN Secretary Guterres's 
Reform Plan, we urge the UN to adopt the recommendations about 
China articulated in our report. But we also urge that Guterres 
himself call out China when it violates UN rules and urge 
Guterres to ensure that the UN is calling out China for its 
human rights violations.
    There are 24 different UN agencies in the mainland. Very 
few of them are willing to speak about human rights at all.
    Last, but not least, I think there is ample scope for this 
commission, for the Senate Foreign Relations Committee, and for 
the House Foreign Affairs Committee, to conduct vigorous 
research and public discussions into Chinese influence in the 
U.S., whether that is about the integrity of electoral systems, 
whether it is about academic freedom, whether it is about 
domestic media practices. I think all of these issues require 
further scrutiny.
    Thank you.
    Chairman Rubio. Thank you all for being here.
    Let me turn to Senator King. You were here early--if you 
have some questions.
    Senator King. I am assuming we can sort of go back and 
forth.
    Chairman Rubio. Yes. It's not very crowded right now.
    Senator King. I'm not sure who to address this to. I have a 
technical question.
    We all know that the Chinese censor the internet. How do 
they do it physically? Do they own the pipes? How does that 
censorship occur? Are they the owners of the distribution 
system?
    Dr. Tiffert.
    Mr. Tiffert. There are a handful of gateways that sit 
between the lines that enter China and the domestic Chinese 
internet. It is through those gateways that enter the country 
in various places, interconnects where they have very large 
server farms that are performing real-time analysis of the data 
going back and forth, filtering it, checking by protocols, by 
content. They lead the world in this.
    Senator King. But they are also censoring their own people.
    Mr. Tiffert. They are. That's right. And they do that at 
the level----
    Senator King. Through the control of the pipes?
    Mr. Tiffert. Yes. They do that at the level of the 
individual ISPs, the providers domestically who will filter 
data. And they also do that through the firms that deliver 
services who are required to adhere and enforce Party policy.
    For example, news sites, entertainment sites are required 
to implement any Party directives that come down to erase 
coverage of a particular topic or not to cover it at all.
    Senator King. Well, I cannot help but note that tomorrow 
our FCC is about to make a disastrous decision to essentially 
turn the control of the internet over to the owners of the 
pipes. It seems to me that makes it easier to censor and to 
control because--and what if a Chinese company took a 
significant ownership share in one of our large 
telecommunication companies?
    This decision that is being made tomorrow is terrible on a 
lot of levels. But it seems to me it makes it easier to censor 
the internet because you are getting the control away from the 
public, the FCC, the people--to the people who own the 
connections.
    Ms. Richardson. I will just add two quick points.
    I agree entirely with what Professor Tiffert has just said. 
Whenever we have done research on this topic, we have also 
found that companies, both Chinese and foreign ones, have 
voluntarily censored topics that they thought were problematic 
before they had even actually been asked to do so by any 
Chinese government authority.
    So we have long urged that companies should have to answer 
questions about whether they were actually asked to do these 
things, whether they were forced to comply with some real or 
perceived Chinese law, or whether they had done it voluntarily.
    Flip it around, and if you look at some of the Chinese 
companies that are now conducting business overseas, for 
example, Alipay. It is now offering services in Japan, not yet 
here, I think.
    But I think there are real questions to be asked about what 
happens when you click that ``accept the terms of service'' box 
because we know that Alipay and Alibaba aggregate data and hand 
it over to Chinese security forces. And if you are a person 
standing outside China, but you are using Alibaba services, 
does that mean that your information, too, is going back to the 
Ministry of Public Security?
    Senator King. It worries me that--one of the reasons it's 
so hard to censor our internet is it is so chaotic and 
decentralized. And by flipping that over, which we think is 
likely to happen tomorrow in one of the most wrongheaded 
decisions I have ever encountered, we are making it easier to 
have those kinds of controls.
    Any evidence of Chinese direct intervention or intention to 
intervene directly in our electoral process, a la the Russians?
    Everybody is shaking your heads. The record won't show head 
shakes.
    [Laughter.]
    Mr. Tiffert. I am not sure that there is any evidence that 
demonstrates that yet. Though it is something that people 
should be paying attention to.
    Senator King. Aren't there some recent incidents in 
Australia of direct intervention in the electoral process?
    Mr. Tiffert. Yes. And there's great concern in New Zealand 
as well.
    Senator King. Is there any reason to think it could not 
happen here?
    Mr. Tiffert. It's certainly a possibility.
    Chairman Rubio. Could I interject?
    This is an important point. So when you answer, no, I think 
what you are answering--and if I am wrong, please correct me. I 
don't want anybody to say that I am leading you in your answer 
because I want this to be--I want your views on this to be 
accurately reflected.
    The question was, how does it compare to Russian 
interference? And I think the answer you've given is there is 
no evidence that they're posting stuff on Twitter or Facebook 
for purposes of dividing the American people against each 
other.
    On the other hand, Senator King asked about Australia. What 
we have seen around the world--and you will correct me if I am 
wrong--is an effort to identify and nurture office holders, 
think tanks, opinion makers, journalists, academia, and 
encourage them both to enter in public service and even to 
rise.
    We've seen open source reports, for example, of outreach to 
local and state elected officials, perhaps anticipating that 
one day they will hold federal office. Or we've seen reports of 
implied threats to cut off access to the Chinese market for 
companies based in certain states unless those states' 
authorities are cooperative or make statements friendly towards 
their cause.
    So I would argue that is influence. I think it's different. 
I think it's softer, more subtle, more long term, but 
nevertheless, it reflects what we saw in Australia where a 
member of Parliament resigned after there were accusations made 
that not only had he tipped off a Chinese national of some 
alleged intelligence operation being conducted against him, but 
that he perhaps allegedly had received cash from a wealthy 
Chinese national, which he had used to pay off personal debts.
    Again, no evidence that that has occurred in the United 
States. But that level of influence--trying to play in the 
politics and nurture a view and individuals who hold views 
friendly to the narrative they're trying to put out. That you 
have seen evidence of.
    Mr. Tiffert. Absolutely. And I think in one sense what 
distinguishes the Chinese efforts to wield influence in the 
United States is that they are spending a great deal more money 
to do that. They have commercial advantages, so they're able 
through, for example, Confucius Institutes, to promote a 
particular view of China and to close out discussion of certain 
topics on campus. They are able to donate money to particular 
causes.
    Much of this is legal activity. They are able simply to 
wield influence because they can write checks. That is 
something that we didn't face as a country during the Cold War 
with the Soviet Union. Their pockets were not as deep.
    China is not necessarily appealing to hearts and minds. 
It's appealing to wallets.
    Ms. Kalathil. I would also add that in our recent report on 
sharp power, we explicitly looked at Chinese influence in young 
democracies and vulnerable democracies and found that through a 
number of different avenues, including through investment in 
the media, including through massive investment in people-to-
people exchanges, the Chinese government is really promoting a 
certain narrative. And that narrative, of course, then enables 
it to achieve its own interests in various ways.
    So while it may be hard to point a finger at specific 
election-related issues or specific political meddling at the 
moment, there's no doubt that there are massive and extreme 
efforts to exert influence through a number of things that 
otherwise would have been seen as soft power, perhaps through a 
different lens.
    But when you consider that the aim of buying up media 
outlets, particularly Chinese language media outlets, but not 
limited to that, is really to shape a narrative and to 
constrain discourse about China in particular, rather than to 
open the discourse and to enable many different critical 
perspectives. And that also is a very long-term and pernicious 
form of influence.
    Senator King. This is really a clash of values in terms of 
open communication, free speech, and those kinds of things. It 
seems to me that there is a continuum.
    We have people-to-people programs. We bring students from 
other parts of the world here. We have various information 
about our country that has a--to use your term--a positive 
narrative. But at some point, the question is, where does 
puffery stop and--I don't know what the right word might be, 
but some kind of subversion begin?
    Let me ask a question. I've had recent information--a large 
number of Chinese students in America, making great 
contributions to our schools. I've known many of them, in 
graduate schools, undergraduate schools. Is there any evidence 
that the Chinese government is recruiting some of those 
students as agents--either gathering intelligence or otherwise 
malign activities in our country?
    Again, I see a lot of nods. You've got to speak up.
    Ms. Richardson. Yes, but I could take that and answer the 
last one a little bit.
    We have been doing some research for a couple of years on 
threats to academic freedom from the Chinese government outside 
China. And a piece of that has involved looking at the 
realities for students and scholars who are originally from the 
mainland on campuses in the U.S., Australia, and elsewhere.
    Certainly--it is not a new pathology that Chinese 
government officials want to know what those students and 
scholars are saying in classrooms. One does not have to have a 
perfect year-on-year dataset to say that it has gotten worse, 
but it's certainly a sufficiently real dynamic for people.
    For example, we have a graduate student who told us about 
something that he discussed in a closed seminar at a university 
here. Two days later, his parents got visited by the Ministry 
of Public Security in China asking why their kid had brought up 
these touchy topics that were embarrassing to China in a 
classroom in the U.S. So I think that surveillance is real.
    If I could just back up slightly to the previous question--
I think there are a lot worse uses of resources than to try to 
replicate Professor Anne-Marie Brady's work with respect to the 
U.S. I think part of what's most extraordinary--this is the 
research that was done on New Zealand--about that paper is that 
it was all open source material, and nobody came out looking 
good.
    And it really did, I think, Senator King, get to the issue 
that you are talking about. That it's fine to have 
relationships, but at what point does that cross the line into 
trying to achieve a certain kind of political outcome?
    And I think that would not be hard to do. I think it's 
essential. You could certainly look at which members of 
Congress, for example, had their travel sponsored by different 
Chinese government entities, many of which, of course, don't 
necessarily have names that immediately convey that they are 
government entities.
    But I think it was reported by The Globe and Mail last week 
that the current Canadian Ambassador, who is fairly new in 
Beijing, had received the largest amount of money of any 
sitting MP in the previous government from Chinese government 
agencies to underwrite travel to China.
    I think these are hard questions that need to get asked 
about who is participating and what--and under what auspices. 
Forgive me if this is a slightly uncomfortable thing to say, 
but I think there are questions also to be asked about why 
there was a representative of the Republican National Committee 
at a meeting of political parties sponsored by the Chinese 
Communist Party in Beijing last week.
    I don't know. I have asked if somebody from the Democratic 
National Committee was there too, but there were 
representatives of the democratic political parties from all 
over the world. Again, not necessarily illegal, but I think it 
goes to legitimizing a political party that's anything but 
democratic.
    Senator King. Well, as Senator Rubio and I both know, 
serving on the Intelligence Committee, it's a short jump from 
supporting a candidate to trying to take out a candidate you 
don't like. And that is--of course, we have seen the Russians 
doing that around the world.
    And the question is--we are not there yet. Is that a 
likelihood? Is that a possibility? I think that is a reasonable 
concern.
    What's going on here--I call it geopolitical jujitsu, where 
you are using your opponent's strengths as also their 
weaknesses. Our strength is our openness, our free society, our 
First Amendment, our protected expression. And that's being 
used by our adversaries to undermine our system. It's kind of 
an ironic turn, using our own values against us.
    That's what's concerning to me because any country in the 
world could look at what the Russians did here in 2016, and 
say, wow, that worked. It was pretty cheap. And here's another 
avenue for influence.
    Chairman Rubio. Just to drill down on that point. There are 
different ways of influencing. There is the more frontal 
traditional approach that we have seen evidence of in 2016. And 
that involves the posting and the driving of certain 
information in order to exploit the existing divisions within a 
society in and of itself.
    And I have opined publicly that that's my view. That more 
than anything else, this was designed to create chaos within 
the political order in the United States and sow instability 
and ensure that the next president, whoever that was, inherited 
societal conflict and a political mess.
    What you are describing is different. It is changing the 
environment in which that debate is occurring, particularly as 
it relates to a particular country's worldview.
    And you all keep going back--and I think Dr. Tiffert, you 
talked about that in your opening statement. You described 
efforts to project a ``China model'' globally as an alternative 
to the liberal order which, for decades--since the end of World 
War II--was anchored by the United States.
    So I would ask all of you, if you can concisely, what is 
the narrative? What is this model? What is the message that 
they are pushing? In essence, what do they want us to accept as 
conventional wisdom about China and its role in the world and 
international norms in 10, 15, 20 years? What are they asking 
people to buy into?
    Ms. Kalathil. Well, I would briefly say that in this 
instance, it is instructive to look at the rhetoric surrounding 
China's Belt and Road Initiative. The key phrase that is 
attached to that initiative is ``community of common destiny.''
    I think it's notable that you talked about how 
authoritarian regimes are trying to use democracies' openness 
against them. They're also subverting the rhetoric of 
democracy. They are explicitly using terms like ``openness'' 
and ``community'' and terms that seem to imply a sort of 
networked model of the world that is not unlike that pushed by 
the liberal international order over the last many years.
    The difference is that there is also, underlying all of 
this, a quite explicit message of noninterference and 
sovereignty. And that, of course, in China's case, fits 
directly into its worldview and how it would like other 
countries to treat it. And you see this also in its approach to 
internet governance. You see it in many of its different 
initiatives.
    But it's notable that--I would say China is not trying to 
say, be just like us. It is actually trying to use this very 
inclusive language to paint a picture that seems like a 
reasonable alternative to the liberal international order, one 
that appeals to small states, to countries that feel 
vulnerable, to those that feel that they might be safer or have 
more of a say in a multipolar world.
    It is this sort of approach that I think is actually new 
and more sophisticated and one that we actually have to think 
deeply about how to address.
    Ms. Richardson. Good morning, Mr. Smith.
    It's hard to improve on that.
    I will just give you one quick example. Last weekend the 
Chinese ministry for foreign affairs hosted a south-south 
cooperation on human rights gathering.
    The concluding document from that contained quite a bit of 
language that at first blush sounds sort of like UN language 
about human rights. It actually mentioned ``universality,'' 
somewhat disingenuously, but at least the word was there.
    But it, like some of the Chinese government's other 
efforts, for example, in UN resolutions, again, sort of pushed 
the idea of sovereignty or national conditions, or with 
Chinese, or swap in another country's name, characteristics. 
Right? That always creates the opportunity for a state to opt 
out of or not have to yield to international standards.
    I think China is really seeking active partnership and 
global support for that idea, and at the same time, pointing to 
the U.S., and pointing to Brexit, and saying I think much more 
clearly and aggressively that electoral democracy doesn't work. 
It's a failure and that their system is superior.
    Mr. Tiffert. I would add to those excellent points also 
that China is doing a very good job of keeping its so-called 
``alternative China model'' to the liberal international order 
deliberately vague so that different regimes can read into it 
what they choose to, simply as an alternative to what they 
might regard as having to respond to demands from western 
donors and western governments about things like human rights, 
transparency, reducing corruption, environmental protection, 
and other factors.
    For them it's a direct appeal to the elites that might be 
governing these already authoritarian or marginally democratic 
regimes. It works in their self-interest.
    To the extent that China is willing to bankroll economic 
development without the conditions attached that organizations 
like the World Bank might attach, then it's win-win for China 
and for the elites who govern these other countries.
    Chairman Rubio. And Congressman Smith has joined us. I am 
going to recognize him in a moment while he gets organized 
because I want to finish these thoughts and this is really at 
the core of what this hearing is about.
    A couple of things you have touched on. The first thing, 
you said it earlier in response to Senator King, is we--let me 
back up and say that we often are guilty of ascribing our 
domestic political attributes to foreign actors, right? Or 
foreign nations, other nations. We think to ourselves, this is 
what it means here, so this is what it must mean over there.
    So when the United States, whether it's McDonald's or Coca 
Cola, or Apple, or Facebook, go to another country, they are 
not there at the behest of the United States Government. They 
aren't even under the control of the United States Government.
    And oftentimes in academia, perhaps more often than not in 
many cases, they certainly are not under our control. In fact, 
many times they go abroad and are critical of their own country 
and vice versa, which is their right in a free society.
    One of the things we have heard from you today is that when 
you look at the toolbox, the influence toolbox that the Chinese 
Communist Party has in its government, all of these things are 
part of that toolbox. In essence, when you are engaging in 
commercial relationships with a Chinese company, potentially a 
large one, in essence you are not dealing with an independent 
multinational actor. You are dealing with an entity that grew 
large and is capable of operating because they are willing to 
be cooperative and in some cases, act as an agent on behalf of 
whatever it is that is being asked of them.
    And I think that poses threats up and down, from 
technological transfers, the embedding of information and 
technology that could ultimately wind up here in this country 
because somebody is using that equipment for our telecom 
networks, all the way to the information about what you buy on 
a certain website, or the credit card and biographical 
information. And that's a real important distinction.
    The other point that you talked about was kind of buying 
into the noninterference argument. Here is where we have a 
couple of examples of how this effort is bearing fruit in 
different parts of the world.
    We had a vote a couple--I guess back in the summer of this 
year in which Greece blocked a European Union statement at the 
United Nations criticizing China's human rights record. There 
was a lot of, ``What is that all about?''
    And then you looked further and you realized that China's 
COSCO Shipping--the owner of the world's fourth largest 
container fleet--had just taken a 51 percent stake in Greece's 
largest port last year.
    So, again, you tie those two things together, maybe they're 
related and maybe they're not. I believe that they are, but you 
start to see where the political angle of a large Chinese 
company--the economic angle, the economic power of a large 
Chinese conglomerate is able to wield influence over a smaller 
economy and how it votes at international forums.
    Then we have the issue of access to this large market that 
people are dying for. So, again, this is where you come into 
this absurd situation where the World Internet Conference is 
held in China, meant to promote China's vision of cyber 
sovereignty, which all of you have talked about. Basically, the 
governments all over the world should have the right to control 
what appears on the internet in their countries.
    The most confusing part of it all is that Apple CEO Tim 
Cook stood up at that conference and he celebrated China's 
vision of an open internet. He delivered the keynote speech on 
the opening day of that gathering. He wasn't there alone, by 
the way. He was joined by some of the other attendees from 
Google and Cisco.
    But the most ironic part about it is that in a written 
response to questions to our colleagues, Senator Leahy and 
Senator Cruz, back in June, or earlier this year--I don't 
remember the month, maybe it was back in November. Apple 
admitted that it had removed 674 VPN apps from its app store in 
China. These are tools that allow users, of course, to 
circumvent censorship by routing traffic through other 
countries. They said they were complying with local law. Skype 
was also removed from Apple's China store, as was reported by 
the New York Times.
    So, again, here's an example of a company, in my view, so 
desperate to have access to the Chinese marketplace that they 
are willing to follow the laws of that country even if those 
laws run counter to what the company's own standards are 
supposed to be.
    And a good example for the United States and for our 
people, how some of these individuals who like to come here and 
lecture us about free speech and human rights, and domestic 
problems, then go abroad and are fully cooperative on some 
grotesque violation of human rights because there is a lot of 
money to be made, and they don't want to offend their host 
country.
    Then the last thing I would point to before I turn it over 
to Congressman Smith is the story that we all are now aware of, 
of a University of Maryland valedictorian who experienced, 
after her commencement speech where she praised free speech in 
the U.S. as a breath of fresh air, she experienced this sort of 
onslaught of online attacks.
    In your written testimony, Ms. Kalathil, you wrote how the 
Chinese government fabricates about 448 million social media 
comments a year to inject certain narratives. But that is, 
unfortunately, not an isolated case.
    We have a number of others, and these are just a handful. 
An overseas university--this month, for example--this article 
is dated, but at some point a lecturer from Monash University 
in Australia was suspended after a Chinese student complained 
on Weibo of a classroom quiz that appeared to insult Chinese 
officials.
    In 2010, the University of Calgary announced that China's 
education ministry had removed it from the list of accredited 
overseas institutions. That came weeks after that University 
had awarded an honorary degree to the Dalai Lama.
    We saw how the University of California at San Diego 
prompted the local chapter of the Chinese Students and Scholars 
Association to threaten ``tough measures to resolutely resist 
the school's unreasonable behavior'' because they had planned a 
speech by the Dalai Lama.
    So you start to see these are all evidence of the different 
tools in that toolbox, which leads me to my final question for 
all of you, and that is--well, my final question here because 
Congressman Smith has questions for you, too.
    Obviously, you are outspoken on this cause. All of you have 
done a significant amount of work. We have read some of the 
efforts that have been used to intimidate or otherwise.
    Are any of you willing to share any experiences you have 
had based on your work, whether it is efforts to discredit it, 
whether it is efforts to influence people against your opinion, 
or beyond? What have you experienced, if anything? Maybe you've 
experienced nothing. But what have you experienced as a result 
of the work you have done on this topic, and in particular, 
appearing at this hearing today?
    We often find that our witnesses in these hearings, 
especially if they are Chinese and have family back home, face 
consequences for that. But in your particular cases, have you 
ever faced anything that made you feel as if it was a result of 
your work on this topic?
    Mr. Tiffert. Personally, I have not to date within the 
United States. In China working on the topics that I work on, I 
come under significant pressure, and the informants and people 
that I speak to also do. I think that goes with the territory 
and it is well recognized among people who work on modern China 
and contemporary issues in China.
    I have to say that in the classroom I've not experienced 
any negative activity or any of the personal outrage that we 
have seen at other universities, say in Australia, to my 
teaching. I have been spared that.
    I have found Chinese students to be extremely thoughtful 
and even open-minded about issues that are passionately felt at 
home.
    But there definitely is the danger, and early career 
academics are highly conscious of this, that there is always 
the possibility that a minority might express unhappiness or 
outrage at something that is taught because it is different 
than the way they have been taught it. And that produces 
unwelcome controversy.
    And for faculty, because of the decline of tenure, faculty 
become risk averse. They do not want to cause controversy 
because they are also concerned that their universities may not 
adequately support them in the event that the Chinese Students 
and Scholars Association, or even a smaller group of students, 
take issue with something that happens in the classroom.
    So there is a self-censorship, a chilling of speech that 
occurs as well.
    Ms. Kalathil. Yes. I also have not personally experienced 
that, in particular. But I would concur with Dr. Tiffert's 
views. As I have taught classes, I think some of the Chinese 
students in my class are surprisingly willing to be open about 
their criticisms.
    And it would be, indeed, sad if pressure on them by the 
embassy, which I gather is starting to happen with more 
regularity, would constrain them from expressing their views in 
what is meant to be a free and open setting. That is a trend 
that I think would be quite terrible.
    Ms. Richardson. I can only recall maybe one or two 
conversations over the years, the dozen years I have been at 
Human Rights Watch, in which Chinese government officials said 
anything that might have risen to the level of being 
threatening. But certainly not anything that made me change my 
job.
    For us, the enormous challenge is about how we are able to 
do research and correctly calculating what threats to people 
who talk to us actually are. That has gotten more challenging 
over the years, ensuring the safety of the people that we have 
interviewed in the same way that--you were talking about the 
safety or what happens to people who have come and testified 
before you.
    Chairman Rubio. The Cochairman.

STATEMENT OF HON. CHRISTOPHER SMITH, A U.S. REPRESENTATIVE FROM 
 NEW JERSEY; COCHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON 
                             CHINA

    Cochairman Smith. Thank you very much, Mr. Chairman. First 
I want to thank you, again, for calling this hearing.
    I apologize for being late. We had a Foreign Affairs 
Committee meeting with Rex Tillerson behind closed doors that 
went on for almost two hours.
    I chaired it for a while and asked him some questions 
regarding China. It was about the redesign effort to reform the 
State Department's organization and operations, but it was also 
about issues and the interface between reorganization and 
foreign policy goals.
    Again, but I want to thank you, Chairman Rubio, because 
this is a really important hearing and part of a whole series 
of hearings you've put together. So I want to thank you for 
your tremendous leadership.
    I did thank Rex Tillerson for putting China on Tier 3 on 
the TIP Report. It is an egregious violator of trafficking. I 
wrote the Trafficking Victims Protection Act of 2000.
    If ever there was a country that should have been on it 
every year, especially in recent years, it is China. The 
previous administration refused to do it. I held hearings to 
try to hold them to account for it.
    There was an automatic downgrade at one point, but that 
wasn't because of merit, but because they were on the watch 
list for too long. But this was made--and when you read the 
narrative, it couldn't be more clear that sex trafficking, 
labor trafficking are exploding in China.
    They are missing some 62 million females, girls, because of 
sex-selection abortion which is further driving the demand. And 
nobody likes to talk about that because it's not politically 
correct, but I will talk about it every day of the week. It is 
a heinous crime against gender, against women, and it now has 
another consequence and that is that it drives sex trafficking.
    I did have a hearing yesterday in my subcommittee on human 
rights--Africa, Global Health, and Global Human Rights, a 
really important hearing, in my opinion. We had two women--and 
I would appreciate your thoughts on this--who escaped from 
North Korea into China. They were trafficked. They made it back 
into North Korea and told how they were beaten, how they were 
just terribly mistreated, which violates the Refugee 
Convention, as you know so well, that China has ratified.
    There have been no consequences over the years for this 
gross violation of refoulement--I asked Rex Tillerson about 
that, and he is taking that back. I said, we need to raise it.
    We know that our Nikki Haley does raise this issue, but it 
needs to be a full court press in my humble opinion, to say 
China violates the refugee convention with impunity and it's 
time to end that. There needs to be a sanction. There needs to 
be a, certainly, lifting of voices.
    The Periodic Review comes up for China in November, I 
believe it is, of next year. But the NGO submissions begin in 
the spring. This commission ought to have a very strong 
statement--and it will, I am sure, under Mr. Rubio's 
leadership--to really make it clear that it's about time China 
was held to account. They have had the long reach of the 
Chinese dictatorship at the UN for far too long. They get a 
slap on the wrist, if that, by the Human Rights Council. And, 
obviously, China runs interference time and time again.
    So if you could maybe speak to the issue of these women, 
mostly, men too, but women who are trafficked, but then they 
are sent back in violation of that refugee convention.
    One other thing that was raised by Rex Tillerson, maybe I 
did say this, but I don't think I did. He talked about 
consolidating the dialogues--we have about two dozen dialogues 
with China at midlevel--to four major ones. When he outlined 
what they were, missing was a human rights dialogue. So I asked 
him about it, and he said that human rights would be integrated 
into the other dialogues.
    And I said, I appreciate that. We need a whole-of-
government approach. But frankly, this ought to be on its own. 
Would you have a fifth dialogue at the highest levels on human 
rights so they know without any ambiguity the United States 
believes in the fundamental freedoms and human rights that we 
have enshrined in our Bill of Rights, and Universal Declaration 
of Human Rights, and so on and so forth?
    You might want to speak to that because I think that's 
important.
    On the World Internet Conference, I want to associate 
myself with the Chairman's remarks. In 2006, I began a series 
of hearings. The first one was with Yahoo, Microsoft, Cisco, 
and Google. And I had all of the top people raise their hands 
and we swore them in, and for eight hours asked questions as to 
why they were enabling the censorship, why they were part of 
the apparatus of repression, and their answers were awful.
    And then when you see Tim Cook talking about, as Mr. Rubio 
said, the common future, it's an ominous continuing down that 
path of allowing this repression, this surveillance, this 
misuse of the internet by the Chinese dictatorship to repress 
its own people. You might want to speak to that.
    And then, finally, on the Confucius Institutes, we have had 
a number of hearings on this commission as well as in my 
subcommittee on the whole issue of the Confucius Institutes as 
a way--we call it academic malware--where there is an all-out 
attempt to, again, influence academia, students, Chinese 
students, but also American students, in a way that would give 
the Party line--and we have them in New Jersey. They're all 
over the country.
    Your thoughts on these Confucius Institutes. We all know 
that heads of colleges and universities are ever in search of 
more money and more programming. And if it comes free of 
charge, certainly it's an engraved invitation to say, come to 
our college or university. To me, it's an invitation for 
disinformation.
    So your thoughts on that.
    [The prepared statement of Representative Smith appears in 
the appendix.]
    Ms. Kalathil. Thank you, Cochairman Smith.
    I thought I would address one piece of what you brought up 
and also what Chairman Rubio addressed in the role of U.S. and 
other tech companies going to China and being complicit in 
practices that enable surveillance and censorship.
    One really fascinating development that's really just been 
in the last few years is the inversion of this typical frame. 
You've been holding hearings on this since 2006. We have all 
been very familiar with the behavior of some of the U.S. tech 
companies when they go to environments like China. There have 
been efforts to try to produce more transparency and 
accountability around their efforts there.
    What we are seeing now, however, is, due to the emergence 
of these Chinese internet and technology giants, including new 
artificial intelligence companies, that essential framework has 
been reversed. So that these companies, which have essentially 
been incubated in an environment where they must do what the 
Party says or they will not profit, are now large enough to 
begin investing overseas.
    So it's no longer simply about U.S. companies going to 
China and, perhaps, being complicit in censorship and 
surveillance. It's about what these really large Chinese 
internet companies are going to do as they expand globally, and 
will they bring aspects of the Chinese internet censorship and 
surveillance system with them.
    There are initial indications from research done by Citizen 
Lab, which was mentioned earlier, that at least with one test 
run, it was found that accounts that had been registered to 
WeChat, which is the largest private chat messaging platform, 
as well as mobile commerce, and a host of other things--when 
devices registered within China were brought outside China, 
they still were not able to access certain sites.
    And in addition, certain key words had been censored within 
chats without people knowing about it. There was no 
transparency about this censorship. The researchers were only 
able to determine this because they ran very specific tests on 
it.
    I think this is just the beginning of what could be a 
larger trend and one that we also should keep our eye on, in 
addition to trying to ensure that U.S. companies are not 
complicit in human rights violations.
    Thank you.
    Ms. Richardson. I'll try to tackle North Korea and the 
dialogues.
    Obviously, Human Rights Watch regularly calls out the 
Chinese government for violating the Refugee Convention, 
particularly with respect to North Koreans. I don't think China 
cares at all what we say about that.
    In a way, honestly, our bigger concern at the moment, 
particularly as, again, one doesn't have the perfect dataset 
from one year to the next, but we have tracked more cases of 
forced returns in the past year than in previous years.
    One of the upsides of technology is that it has given us 
much greater visibility into some of the cases of North Koreans 
in China who desperately need assistance.
    And at a time when the United Nations High Commissioner for 
Refugees can't/won't exercise its protection mandate--it has 
the mandate to go out and help those people. And it is 
effectively prevented from doing that. It is a much larger 
problem in Geneva than what is happening in the office in 
Beijing.
    But I think unless and until that problem for UNHCR can be 
fixed, the U.S. and other like-minded governments should come 
together to think about how to actually provide some protection 
to those people.
    Often when we raise that issue, actually ironically, one of 
the answers we get back is that nobody wants to encourage the 
further trafficking of North Koreans through China, as if 
assisting these people would somehow increase traffickers' 
business.
    In our standards, that's a second-order problem. You save 
people first. You keep them from being sent back to North 
Korea. That's the first-line obligation. And we need to see 
more governments willing to actually put a plan in place for 
that.
    On the topic of dialogues--we have talked about this a lot 
over the years. I think it's very important that the larger 
context be considered. We've always been of the view that the 
Chinese government does not really take other governments' 
interventions about human rights seriously unless it is coming 
from the absolute top all the way down through a system.
    I think in that sense, the President's trip was extremely 
problematic because he essentially showed up and said he 
thought that President Xi was doing a great job, which is going 
to make it extremely difficult for anybody further down in the 
system to effectively weigh in and not have their Chinese 
counterpart say, but your boss just said that our boss was 
doing a great job.
    The dialogues have been very problematic over the years 
because they are so contained and so siloed. I don't want it to 
fall off the agenda, obviously.
    The current framework of having only these four dialogues, 
in which we're told, but given no evidence that human rights 
issues have been raised or raised in an effective manner, I 
think, is extremely problematic.
    We have some ideas about what could be done instead. The--
for example, shadow dialogues with independent civil society. 
This is something we recommended to the EU for years, as its 
dialogues have gotten boxed in. But I'd be happy to share some 
of our thinking about how to build this in in the current 
environment and make it relevant for human rights defenders 
from China.
    Cochairman Smith. If you could and make it a part of the 
record as well as convey to us.
    Ms. Richardson. Of course. Happy to.
    Cochairman Smith. You know, on your point before I go into 
the final, yesterday the testimony couldn't have been clearer.
    We had Bob King as our former Special Envoy testify. And he 
noted that the numbers had dropped from 3,000 making their way 
into South Korea to 1,500. That was in 2011.
    Last year and this year, it's even a slower pace. So Xi 
Jinping is actually further tightening the grip on those who 
successfully make it into South Korea, which is, again, a very, 
very horrible trend.
    Mr. Tiffert. I'd like to address the question of the World 
Internet Conference and Confucius Institutes.
    It seems to me that the United States is accustomed to 
dealing with or engaging with the world from a position of 
strength, not just comprehensive economic and military 
strength, but also a deep confidence of the enduring appeal of 
our values around the world. And that, particularly since the 
fall of the Berlin Wall, has produced a certain amount of 
complacency. We thought, game over.
    I don't think China ended the game. And I believe that we 
are now playing different games, and the United States needs to 
get its game back on.
    Our confidence about our strengths, our power, our soft 
power, not just our hard power, has produced a language of 
responsible stakeholding, convergence. They'll become more like 
us if we simply open our institutions to them and show them how 
fabulous we are.
    China is the first country, I think, this century to 
challenge that from a position of comprehensive strength. They 
are large. They are increasingly rich, increasingly militarily 
powerful.
    So we need to dig deep. Our way, I think, of dealing with a 
lot of these issues is to harden our own institutions, some of 
which are developing cracks--academia, the media, other 
institutions.
    China is exploiting those cracks, and it is doing it in 
ways that, well frankly, are brilliant. But our best response 
to these exploitations is to strengthen ourselves, to raise 
consciousness, to get our game back on, and to reinvest in 
ourselves.
    It is a question of values. Senator King raised this 
earlier. To the extent that we regard our engagement with them 
as purely transactional and disengage values from it, then Tim 
Cook can talk optimistically about a day when China may 
suddenly open up without having to confront the problem of the 
China of today.
    Cochairman Smith. And you know that is a continuation of 
Obama's strategy. I remember the Washington Post when the 
previous--not Xi Jinping--the previous premier was here, the 
Washington Post did a scathing editorial when he was asked 
about why Liu Xiaobo was not brought up; here you are with a 
Nobel Peace Prize winner, with the jailer sitting at a joint 
press conference, and President Obama said maybe they have a 
different system and they have a different culture, which I 
found to be very, very disturbing.
    Chinese people understand human rights. Look at Taiwan, how 
it has flourished and people who have suffered so much for 
their human rights by going to the Laogai and suffering 
repression.
    And the Post did a scathing editorial about that. So it's a 
continuation of egregiously flawed policy and mindset, in my 
opinion, which is why, again, we need to get human rights front 
and center, which is what this commission tries so valiantly to 
do under Mr. Rubio.
    Thank you.
    Chairman Rubio. Senator King.
    Senator King. I promise, Senator Rubio, a brief question, 
but it is a big one.
    There has been sort of an assumption through this hearing 
that the intentions of China are malign. I don't know whether 
that's true or not. Here is my question, and perhaps you can 
take it for the record and give me a little one-pager. What 
does China want? What are their goals? Is it military hegemony 
in the region? Is it simply a more powerful economy, richer 
people?
    There was a story this morning that they may buy a stake in 
Aramco in a private offering from Saudi Arabia. Is it access to 
resources? I don't think we really have time to delve into 
this, but I think it's an important question; what are their 
motivations behind all of this? Is it malign or is it simply 
self-interest defined as wanting to be the strongest economy in 
the world or certainly in the region? Do they have territorial 
ambitions?
    I think it's a question worth asking. I would appreciate 
your thoughts for the record.
    Thank you. Thank you, Mr. Chairman.
    Chairman Rubio. Thank you. I guess before we wrap up I did 
want to give you all a chance to talk more in depth about the 
United Front Work Department, one of these agencies that seems 
to be the umbrella group for influence. Because it seems like 
there is always--look, information has always been valuable, 
right? And our approach to information has largely been to open 
up our political process here in the United States, to allow 
the world to watch it, and through our example, hopefully 
influence them and say, see, you can have a pluralistic society 
where people disagree about things, they argue about it, and in 
the end you can still govern.
    And we have been less than perfect, but in the process 
people have seen our imperfections. We have debated some 
substantial societal issues over the last 50 years, some of 
which seem to bring us to the point of collapse. Yet, 
nevertheless, our nation persevered.
    What has changed is the democratization of information, in 
essence, making it so diffuse, so easy to access from so many 
different sources on an hourly basis; it is a great positive. 
It has given us the opportunity for people all over the world 
to be quickly informed. It's also created the opportunity for 
people to be misinformed, and for information to be denied to 
them, or only certain information to be provided.
    So today, we continue with the existing model. And I am not 
arguing that we should change it. But you turn on the 
television and there is a station for every--no matter what 
your opinion is, there is a station out there prepared to 
confirm it.
    We have in the case of China, an entity or a government 
that has realized that this is a powerful weapon and that our 
openness creates a space to provide information over a 
substantial period of time in a slow and patient way to change 
the environment.
    It seems like this agency or department is at the tip of 
that spear. If you could just talk a little bit about who they 
are, what they do--but, ultimately, it seems to be that it is 
from there where all of these efforts emanate, whether it is 
sending people, influencing people, providing information--who 
are they? What's their purview? What do they do?
    Mr. Tiffert. I think the story has to begin with the 
history of the Chinese Communist Party as a hunted 
revolutionary movement over a century ago. They developed very 
keen strategies, helped by the Soviet Union, in fact, to 
cultivate allies among influential people in society to 
neutralize opposition to the point where they would get the 
upper hand.
    The United Front Work Department is the tip of that spear 
pointed out of China in order to cultivate friends and allies, 
influence people abroad. Basically, it's their Dale Carnegie 
strategy of making friends and influencing people, and doing it 
underground in a way that is nonobvious.
    It is a one-stop shop that coordinates national strategy 
for that purpose. The United Front Work Department is engaged 
with influencing foreign media, influencing foreign academia. 
There have been many people who carry, sort of, closet 
portfolios in the United Front Work Department who are working 
in Chinese news agencies.
    Their agenda, basically, is to reshape the international 
environment in order to make it friendlier to China and advance 
China's policy goals without seeming to act specifically as the 
state.
    Ms. Richardson. I will just add to that. I think many 
people outside China circles, frankly, plenty of people in them 
too, are not terribly aware of entities like the United Front 
Work Department.
    Look, to American or English-speaking political ears, it is 
a funny-sounding term. It almost sounds like a public works 
department, as if they took care of the pipes or something like 
that.
    I think there is not much recognition that the United Front 
Work Department and other things like the "peoples friendship 
associations," or patriotic fraternal associations are really 
at the end of the day wholly owned subsidiaries of either the 
Chinese government or the Party. They are not independent 
entities.
    There is also the reality that as the United Front Work 
Department approaches political parties or institutions around 
the world, it's not as if those institutions can then reach out 
to the alternatives to the United Front Work Department or to a 
different Chinese political party.
    They do not get options because those aren't permitted to 
exist. There is no rule that says just because you have met 
with the United Front Work Department, you now need to meet 
with somebody who is critical of the Chinese government. So I 
think as a vehicle, it is very powerful and there aren't other 
obvious voices to go out and to listen to.
    Ms. Kalathil. Just to add briefly to that, I think those 
are all very good points. I would also say that it is not only 
about the United Front Work Department, as we have probably 
demonstrated in our testimony today.
    To go back to a concept that I referred to in my testimony, 
I think--this was in respect to China's system of Internet 
control, that it really could be applied to its system of 
external influence, also. The idea is to have redundancy built 
into every layer.
    So it is not just about what the United Front Work 
Department is doing. It's also about joint ventures that are 
entered into with companies, particularly Hollywood or 
technology, other companies that shape the environment so that 
China can achieve its strategic interests. If we're not aware 
of that entire environment, I think we are also probably 
missing part of the puzzle.
    Chairman Rubio. I think you touched on just a couple little 
random notes I want to leave on the record so that they are 
clear that they were discussed today.
    The first is, as you just mentioned, entertainment and 
Hollywood. There have been multiple reports of--I alluded to it 
earlier--movie scripts, entertainment that was altered for 
purposes of ensuring that that product had access to the 
Chinese market.
    I've always got to chuckle, the reports that I read about 
the Chinese Communist Party were big fans of season one of 
House of Cards. They were not big fans of season two for 
different reasons.
    Again, I think the average person doesn't realize there are 
actually movies that are changed here in America because they 
want to make sure the script is something that doesn't cause it 
to not have access to this growing important market.
    So just the strategic use of its consumer power in and of 
itself could require everything from altering scripts to 
figuring out what they will require companies to put in these 
devices in case intelligence officials ever decide to turn it 
on.
    So when you see an American telecom carrier, or provider, 
or whatever--has signed a deal with a company that has the 
sponsorship and support of the Chinese Communist Party, you 
should assume that as part of that, you are inheriting 
something on this device that could potentially--whether it's 
on the network or on your device--make you individually 
vulnerable to surveillance at some point in the future.
    Again, something that we need to understand because our 
companies don't do that. You cannot go to them and say you must 
put stuff on your phone that allows us to listen to anybody we 
want anywhere we want when we tell you to. We have legal 
processes if that is even ever done.
    The second is I want to quote from a report--if it is not 
already, it may be redundant, but I want this full report to be 
included in the record without objection. It's a December 
2017--this month, from the National Endowment for Democracy 
about Latin America, an area that I spent a lot of time working 
on in the Foreign Relations Committee.
    [The full report can be found at https://www.ned.org/wp-
content/uploads/2017/12/Sharp-Power-Rising-Authoritarian-
Influence-Full-Report.pdf]
    Chairman Rubio. And I quote from it saying, ``Beijing 
strategy clearly targets Latin American elites, prominent 
regional leaders from multiple fields, including politicians, 
academics, journalists, former diplomats, current government 
officials, students, among others are subtly--that is the key 
word--subtly being enticed by the Chinese government through 
personal interaction with the ultimate purpose of gaining their 
support for China. As a result, many of these renowned and 
influential people have already become de facto ambassadors of 
the Chinese cause.'' And I would add de facto unwitting 
ambassadors. I don't think they know that they are targeted for 
this effort.
    To some extent, all countries try to do that. They try to 
convince you in one direction or another, but this is an 
orchestrated effort in a part of the world.
    It goes on to read, ``the people-to-people engagement, 
money is key. Free-of-charge trainings, exchange programs, 
scholarships in China have proven to be effective tools to 
engage Latin America's regional elites, an idea that was 
supported in 2016, by Xi Jinping, when he announced he would 
train 10,000 Latin Americans by 2020.
    ``The media and academia are two areas of priority 
attention for these efforts. Consequently, China is determined 
to promote cooperation of different kinds between media 
companies, universities, and think tanks both at the regional 
and country level. Education and culture are increasingly 
important in Beijing's toolkit as well.''
    And it almost leads me to feel like 50 years from now when 
historians write about this period of time, they're going to 
write that policymakers here were lulled to sleep on a bunch of 
matters while this massive effort was happening right 
underneath us. And we didn't even realize it.
    It is almost the analogy of the frog in the boiling pot. 
And if you throw it in the boiling pot, it jumps right out. But 
if you let it sit there as the water heats up, it never even 
notices it is being boiled to death.
    Another matter of interest that I want to make sure is 
noted is a Wall Street Journal article that reported Facebook 
is trying everything to reenter China, including developing 
censorship tools. I want the record to reflect that in an open 
hearing of the Intelligence Committee, I asked specifically 
about it, and the answer from the general counsel was--and I 
believe it was the general counsel--we comply with the laws of 
the countries that we operate in.
    So what that basically means is that Facebook, at least 
according to the information provided to us, was prepared to 
install censorship filters in order to get access to China and 
their market. And it's an important thing to remember as we 
move forward.
    I have a final question, and this really relates to the 
first point I was making. Just as they undertake those efforts 
in Latin America, I think there is evidence that those efforts 
exist here as well.
    And you all alluded to, a moment ago, about a 
representative of the RNC that was in China recently at a 
conference, some political parties. We know there is extensive 
travel, members of Congress and staff.
    I guess my question is, what can we better do to educate 
staffers on lobbyists or people-to-people exchange 
opportunities that are sponsored by, whether it is the United 
Front or its affiliated organizations or anyone?
    In essence, is it not incumbent upon--we are not going to 
prevent these trips--but is it not incumbent upon us to inform 
members of our staff and members of the House and Senate that 
when you go on these trips, here's why they do the trips, these 
are the kinds of things they do--by the way, they are not the 
only country in the world that does it. The Cuban government 
does this as well.
    But shouldn't there be something in place, a protocol in 
place where when you accept one of these trips from certain 
countries, you are made aware of the fact that these trips are 
not done the way Belgium does them, or somebody else does them? 
There is a rationale behind it, and that is to win you over to 
their narrative and to what they want policy to be.
    Ms. Richardson. I am happy to give you the affirmative, 
yes. There should be a protocol that does that.
    I agree that those trips should not be prevented, but 
people need to understand why they have been asked and how the 
Chinese Communist Party or the Chinese government will construe 
their accepting those offers.
    Mr. Tiffert. Absolutely. I would absolutely agree with 
that. There needs to be a tremendous amount of consciousness 
raising on the depth and sophistication of the influence 
operations that are going on in the United States.
    Beyond that, people who are invited to go should understand 
that they've probably been invited for very specific reasons, 
because of who they are, what their views might be, or where 
they sit in an organizational food chain in order to exercise 
that kind of influence that the Chinese government is hoping to 
have over them and potentially policymaking.
    Ms. Kalathil. I would just add, to step back and put it in 
the context of democracies in general, and particularly the 
emerging and vulnerable democracies that you referred to, in 
Latin America and elsewhere--there is a distinct lack of 
knowledge about China in many of these places, particularly in 
the countries of Latin America, in the countries that make up 
China's 16+1 initiative in Central and Eastern Europe.
    There is not that deep breadth of knowledge which is 
demonstrated by my fellow panelists here that can speak to 
these issues. So a lot of the time these people go into these 
exchanges with no context.
    So what I would like to see happen generally in democracies 
is for there to be more context and learning around this, more 
transparency. And perhaps some kind of, as you get through 
that, voluntary agreement to certain norms around whether it's 
exchanges or academic publishing or anything, but something 
that allows people to feel that they are not in it alone.
    So if you are a university that is being approached by a 
Chinese counterpart and asked to compromise your academic 
freedom, you can reach out to others and understand that 
there's a common understanding of what is and isn't beneficial 
to democracies in that regard.
    That, I think, would be a good first step.
    Chairman Rubio. A final quick question; we are running out 
of time.
    Are any of you aware of efforts, whether it's in academia 
or entertainment or anywhere for universities, for example, to 
come together and confront this threat to academic freedom, 
establish some level of standards about what they will and will 
not do in the universities, a collective effort to all 
affirmatively say, we don't care if you are going to deny us 
trips and access to the marketplace or even to students or to 
exchanges or the ability to have a campus on the mainland; we 
are not going to allow you to pressure and undermine academic 
freedom?
    Are you aware of any such efforts to create some sort of 
joint effort, whether it is in the entertainment industry or in 
academia?
    Mr. Tiffert. I think they are incipient. I hope that they 
continue and develop further. There are conversations that are 
beginning to happen along those lines, as consciousness about 
the breadth of influence operations is getting raised.
    We are nowhere near where we need to be, though.
    Ms. Richardson. Just by chance, I happened to spend Sunday 
morning with a group of China-focused academics. And this issue 
dominated our conversation, and I think it is fair to say there 
is enormous interest in having some sort of set of principles 
or a code of conduct.
    But I think there is also a recognition of how difficult it 
would be to get institutions to sign on to that for fears about 
loss of funding or the desires of fundraisers or administrators 
versus the interests of faculty. But I think there is momentum 
to capitalize on.
    Ms. Kalathil. And I have seen that incipient movement which 
I think is terrific. I do think that that is more likely to 
occur in institutions that already privilege certain types of 
democratic expression, such as university campuses or media 
organizations. In areas such as technology or entertainment 
companies, where the motive is to access China's market and 
there is no underlying value base there, I think that is much 
more difficult.
    Chairman Rubio. Well, then I'll close with these three very 
quick comments as a matter of personal privilege in this 
regard.
    The first is I hope my colleagues if they ever read this 
record, if it's ever reported what we are about to talk about 
here, what we have talked about today, realize that big 
companies, corporations, business interests, their obligation 
is to their shareholders, and/or owners to make money.
    China is an enormous marketplace, so they are driven by 
that. They are prepared to advocate for virtually anything that 
allows them access to that marketplace. Just because they have 
an English name and happen to be headquartered in the United 
States does not make them advocates of the principles that we 
need to balance as public policymakers.
    And we should be wary of that because oftentimes some of 
the strongest advocates for tyrannical regimes are the 
businesses and individuals that are making good money in that 
market due to their relationship with the current tyrannical 
government, and their basic argument is, don't mess it up. 
We've got a good thing going. We have lived through that with 
Russian sanctions, to some extent a little bit with Venezuela 
sanctions, and clearly when it comes to China, over and over 
again.
    Which leads me to my second point, and that is kind of a 
sense of frustration about this issue. The reaction to today's 
hearing will be one of two things: (1) largely ignored; or (2) 
the argument that we are paranoid, that this is paranoia. This 
is ridiculous. This is not at all what is happening.
    And, of course, that furthers the narrative that the 
Chinese Communist Party is always putting out, that we are just 
a small, poor country trying to just catch up to where you are. 
We are not any threat to you.
    But the first part of ignoring really bothers me because 
there will be a lot of coverage today about whatever the 
President or someone else tweeted this morning. Meanwhile, this 
extraordinary geopolitical issue that has incredible historical 
importance in a way that people will write and talk about for a 
century is happening right underneath us, and very few people 
realize it. And those that do would rather talk about whatever 
the outrage of the day is. I don't even know. I haven't gone 
online to see what it is.
    And the last point--and I always make this in these 
hearings because I want to be abundantly clear. This is not 
about the Chinese people. It is not even about China who we 
hope will emerge--it does not have to have our system of 
government, per se.
    There are all sorts of different ways to structure 
democracies. No one is more hopeful than we are, and me 
personally, to have a China that is a partner in the 
international community.
    Can you imagine what a China that respects human rights and 
the liberty and the dignity of all people, their own and others 
abroad, could do in partnership with the United States? The 
issues we could confront and solve.
    It would be an extraordinary development in human events if 
that were to occur. So this is in no way hostility towards the 
people.
    On the contrary I have respect for the achievements and the 
importance of Chinese culture and Chinese history, a nation 
that for almost all of human history has been the most 
important or one of the most important in the world, has made 
extraordinary contributions in the arts and the sciences, and 
learning, and academia.
    I want that potential and that history to be unleashed to 
change the world in a positive way. Unfortunately that is not 
what we see. What we see here on the behalf of the government 
and the Communist Party is an effort to roll back the advances 
towards human freedom that have been made over the last hundred 
years, or particularly since the end of the Second World War.
    And that's also important to communicate, because sometimes 
when we talk about China, it means in the minds of some that we 
are talking about the Chinese. And we are not. We are fully 
cognizant that in a nation that large with that many people, 
there are hundreds of millions of people who aspire to a 
different way forward, but simply do not have the way to 
advocate for it or are punished for advocating for it, 
sometimes even with their lives. So that is always important to 
leave clear on the record.
    So with that, the record for this hearing, as I said at the 
outset, is going to remain open for 48 hours so additional 
documents and information can be provided.
    I thank all of you for being here, for your patience. It's 
been a long hearing, but I think an important one.
    We are adjourned.
    [Whereupon, at 12:28 p.m. the hearing was adjourned.]

   
      
=======================================================================


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                 Prepared Statement of Shanthi Kalathil

                           december 13, 2017
    Chairman Rubio, Chairman Smith, distinguished Members of the 
Commission, thank you for the opportunity to speak to this important 
topic today. It is an honor to testify before this Commission alongside 
such expert colleagues.
    Today I will address China's outwardly directed efforts to shape 
expression and communication globally, and the negative implications 
this poses for democratic expression and discourse, even within 
democracies. In particular, I will discuss how the Chinese government 
directs and harnesses private sector activity in the Internet and 
technology space, as well its efforts to reshape global narratives 
through a range of influence activities that have typically been 
categorized as ``soft power.''
    To begin with, consider a metaphor sometimes invoked to explain 
China's domestic approach to the Internet, namely, that of the ``walled 
garden.'' The garden is not devoid of color: indeed, certain flowers 
are cultivated and allowed to bloom profusely, while those plants 
deemed weeds are yanked out by the root. In this way is the space 
pruned to fit the preferences of the master gardener.
    While metaphors are always imperfect, this one does convey 
important ideas about how the Chinese Communist Party (CCP) approaches 
China's information, media and technology sector, ideas that also have 
relevance for its international approach. Three key aspects of its 
domestic ``walled garden'' approach are relevant here.
    First, the CCP has put the technology it needs into place. The so-
called ``Great Firewall'' is dependent on an elaborately layered system 
of control, beginning with the technological and communications 
``pipes'' themselves and extending to what is an increasingly advanced 
system of not just censorship but comprehensive surveillance. A recent 
BBC story noted that there are 170 million CCTV cameras in place, many 
enhanced with facial recognition technology, and an estimated 400 
million new cameras coming online in the next three years.<SUP>i</SUP> 
The Wall Street Journal reported last week about a man detained for a 
stray wisecrack made on a private chat on the WeChat messaging 
platform; government authorities can now identify citizens on the 
street through facial recognition, monitor all online behavior, and 
identify potential (or even future) dissenters and 
``troublemakers.''<SUP>ii</SUP> For an example of this dystopian model 
taken to an extreme, look no further than the Chinese province of 
Xinjiang, where the government tests tools like iris recognition, and 
constant surveillance is a fact of daily life.<SUP>iii
    </SUP>Second, it is not simply about the technology. Beijing relies 
on individuals, corporations and institutions for not just censorship 
and self-censorship but the proactive shaping of norms, narratives and 
attitudes. For instance, the Chinese government places the 
responsibility on private sector companies as gatekeepers to monitor 
and circumscribe online activity, as well as on individual users to 
self-censor. In addition, as a recent study noted, the government 
fabricates roughly 448 million social media comments a year, injecting 
certain narrative elements into online chatter to distract or cheerlead 
in order to stop the spread of information that may spur collective 
action.<SUP>iv</SUP> One of the study's authors has described the 
overall approach as the three Fs: fear that induces self-censorship, 
friction that makes true information hard to find, and flooding of the 
information space with distraction or chaos.<SUP>v
    </SUP>Underpinning all of this activity is the third aspect: 
Beijing's core economic bargain, which consists of preferential 
treatment and implicit prosperity for those who respect Beijing's so-
called ``red lines,'' and punishment for those who do not. Chinese 
Internet and technology companies, who are probing frontiers in mobile 
commerce, artificial intelligence, and a host of other areas, have with 
direct or indirect help from the state evolved into formidable 
behemoths with global ambitions. While their relationship with the 
Party is not always straightforward, they understand that staying on 
the CCP's good side (which includes reliable policing of communication 
and development of technologies that will benefit the state) will 
deliver tangible benefits, while getting crosswise might entail severe 
corporate and even personal penalties.
    The entire combination of these aspects is a complex system that 
curtails freedom, suppresses dissent, and manages public opinion, 
reliant not on any individual element but on a principle of redundancy 
built into every layer. Why is this domestic approach relevant to our 
topic today? Because it is becoming evident that the CCP under Xi 
Jinping is intent on encompassing the rest of the world within its 
``walled garden.''
    This is not to say that China now attempts to control every facet 
of communication, or that it wants to impose its exact model of 
authoritarian governance everywhere. But it is increasingly true that 
Beijing's technology ambitions, combined with its attempts to determine 
on a global scale the parameters of ``acceptable'' speech and opinion 
with respect to China, pose clear threats to freedom of expression and 
democratic discourse outside its borders. Indeed, in 2015 Freedom 
House's China Media Bulletin estimated that since Xi came to power, the 
Chinese government had negatively affected freedom of expression 
outside China over 40 times in 17 different countries and institutions; 
that number has only increased since then.<SUP>vi
    </SUP>While Beijing obviously cannot muffle dissent and 
accountability across different countries in the same way it does at 
home, it does seek to apply its principal ``gardening'' techniques 
within the international sphere. First, while it cannot control the 
infrastructure and technology of the global Internet, Chinese companies 
are actively building out key telecommunications infrastructure in the 
developing world, particularly on the African continent, which has 
raised questions about security and the dissemination of censorship 
capabilities.<SUP>vii</SUP> In addition, if China succeeds in 
dominating the emerging global market for data-enabled objects (the 
``Internet of Things''), as it seeks to do through its Internet Plus 
initiative, its approach to embedded surveillance may become the norm 
in places with weak individual privacy protection.
    Moreover, the same Chinese tech giants whose platforms enable the 
domestic surveillance described in last week's Wall Street Journal 
story are taking stakes in the firms that provide key global apps and 
services. Just last Friday, Tencent (the parent company of WeChat) and 
Spotify announced that they had taken minority stakes in each other, 
following earlier Tencent acquisitions of minority stakes in Snap (the 
parent company of Snapchat) and Tesla.<SUP>viii</SUP> Artificial 
intelligence companies such as iFlyTek pioneer the surveillance aims of 
the government through the use of big data and weak Chinese privacy 
standards, while also entering into deals with industry leaders such as 
Volkswagen and others.<SUP>ix</SUP> It is reasonable to ask whether 
Chinese firms with global ambitions plan to follow the same explicit 
and/or unspoken Party dictates with respect to data-gathering, 
surveillance and policing of ``sensitive'' communication abroad as they 
do at home.
    These technological advances dovetail with the government's efforts 
to shape the Internet and other future technologies through key 
Internet governance bodies and discussions. The Chinese government's 
initially derided attempt to direct this conversation, the recently 
concluded World Internet Conference in Wuzhen, succeeded this year in 
attracting high-level Silicon Valley participation. Importantly, it 
established the optic that the world's leading technology firms have 
blessed China's approach to the Internet.
    Second, as is the case within China's borders, it is never only 
about the technology. The Chinese government has spent tens of billions 
of dollars to shape norms, narratives and attitudes in other countries, 
relying on the cultivation of relationships with individuals, 
educational and cultural institutions, and centers of policy influence. 
Such efforts are not properly conceived of through the familiar concept 
of ``soft power,'' which is generally described as reliant on 
attraction and persuasion, but rather as ``sharp power,'' which is 
principally about distraction and manipulation, as argued in a new 
study released last week by the National Endowment for Democracy 
examining authoritarian influence in young democracies.<SUP>x
    </SUP>One of the clearest examples of this ``sharp power'' is the 
expanding network of Confucius Institutes, controversial due to their 
lack of transparency, disregard of key tenets of academic freedom, and 
ability to function as an arm of the Chinese state within academic 
campuses.<SUP>xi</SUP> Concerns have been raised about self-censorship 
on topics related to China in the realm of academic and other 
publishing worldwide, posing fundamental questions about freedom of 
expression in democracies.<SUP>xii</SUP> In addition, China's heavily 
funded people-to-people diplomacy exposes visitors from Africa and 
Latin America, as well as the young democracies in Central and Eastern 
Europe within the context of China's ``16+1'' initiative, to a 
carefully managed narrative about China's ``win-win'' approach, finding 
fertile ground in countries which lack the expertise to examine these 
messages and arguments critically.<SUP>xiii
    </SUP>Finally, underlying all of this is the unavoidable aspect of 
China's carrot-and-stick contract with the rest of the world. China's 
efforts to enclose the rest of the world within its walled garden would 
not have been feasible had not governments, universities, publishers, 
Hollywood and technology companies all been roped into this implicit 
and sometimes explicit bargain.<SUP>xiv</SUP> Apple CEO Tim Cook, one 
of the most high-level Silicon Valley participants at the recent Wuzhen 
conference, essentially underscored this point through his celebration 
of China's digital vision, paired with the company's earlier yanking of 
anti-censorship VPNs from its app store in China.<SUP>xv
    </SUP>Some might say that the Chinese government is simply pursuing 
its strategic and economic interests, like any other country. Even if 
views differ on this, it nonetheless behooves the international 
community to acknowledge that the values that inform Beijing's 
interests in this realm pose serious concerns for democratic norms and 
institutions around the world. It is therefore both timely and 
necessary for democratic governments and civil society to be proactive 
in asserting why norms such as transparency, accountability, and 
pluralism are critical to their interests, and to come up with fresh 
approaches to build resilience. First steps might include:
    <bullet>  Continuing to shine a light on the ways in which the 
Chinese government's media and technology initiatives, as well as 
``sharp power'' influence activities, are impinging on democratic 
institutions outside China's borders. While this is now beginning to 
happen in some places, notably Australia and New Zealand, it is still 
the case that most democratic societies are not yet connecting all the 
dots, much less formulating nuanced responses that hew to core values.
    <bullet>  Facilitating democratic learning, particularly within 
countries without deep capacity to analyze China. Because the Chinese 
government constrains critical discourse about issues it considers 
sensitive, and these constraints are built into the fabric of its 
engagement with both state and non-state actors in young democracies in 
particular, genuine critical discourse about China may be lacking.
    <bullet>  Seeking transparency in agreements with Chinese state-
affiliated institutions, such as Confucius Institutes and others. 
Particularly (but not only) when public funds in democracies are 
involved, civil society should insist on its right to understand 
whether fundamental issues such as freedom of expression are placed at 
risk.
    <bullet>  Collectively establishing mutually agreed informal norms 
and ``good practice'' within respective industries (such as publishing, 
academia, media, film, and technology) so that individual actors are 
not as susceptible as they are now to being picked off and pressured by 
the Chinese government or its surrogates. For instance, academic 
publishers in democratic settings might collectively agree to resist 
censoring materials that pertain to China, and so on. In the absence of 
such norms defending key democratic values, China will continue to set 
standards based on the CCP's restrictive understanding of these values.
    Thank you very much, and I look forward to answering your 
questions.

_______________________________________________________________________
    <SUP>i</SUP> ``In Your Face: China's All-Seeing State,'' BBC, Dec. 
10, 2017. http://www.bbc.com/news/av/world-asia-china-42248056/in-your-
face-china-s-all-seeing-state
    <SUP>ii</SUP> Eva Dou, ``Jailed for a Text: China's Censors Are 
Spying on Mobile Chat Groups,'' The Wall Street Journal, Dec. 7, 2017. 
https://www.wsj.com/articles/jailed-for-a-text-chinas-censors-are-
spying-on-mobile-chat-groups-1512665007
    <SUP>iii</SUP> Megha Rajagopalan, ``This is What a 21st Century 
Police State Really Looks Like,'' Buzzfeed News, October 17, 2017. 
https://www.buzzfeed.com/meghara/the-police-state-of-the-future-is-al
ready-here?utm_term=.vpk2O30p2#.xtprQxJor
    <SUP>iv</SUP> Gary King, Jennifer Pan, Margaret E. Roberts, ``How 
the Chinese Government Fabricates Social Media Posts for Strategic 
Distraction, not Engaged Argument,'' April 9, 2017. https://
gking.harvard.edu/files/gking/files/50c.pdf
    <SUP>v</SUP> Joshua A. Tucker, Yannis Theocharis, Margaret E. 
Roberts, and Pablo Barbera, ``From Liberation to Turmoil: Social Media 
and Democracy,'' Journal of Democracy Vol. 28, Issue 4, October 2017. 
https://www.journalofdemocracy.org/article/liberation-turmoil-social-
media-and-democ
racy
    <SUP>vi</SUP> Sarah Cook, ``Resisting Beijing's Global Media 
Influence,'' The Diplomat, December 10, 2015. http://thediplomat.com/
2015/12/resisting-beijings-global-media-influence
    <SUP>vii</SUP> John Reed, ``Africa's Big Brother Lives in 
Beijing,'' Foreign Policy, July 30, 2013. http://foreignpolicy.com/
2013/07/30/africas-big-brother-lives-in-beijing/
    <SUP>viii</SUP> Anna Nicolau, ``Tencent and Spotify Buy Minority 
Stakes in Each Other,'' The Financial Times, Dec. 8, 2017. https://
www.ft.com/content/07ccf3e0-dc28-11e7-a039-c64b1c09b482
    <SUP>ix</SUP> Paul Mozur and Keith Bradshaw, ``China's A.I. 
Advances Help Its Tech Industry, and State Security,'' The New York 
Times, December 3, 2017. https://www.nytimes.com/2017/12/03/busi
ness/china-artificial-intelligence.html?_r=0
    <SUP>x</SUP> Christopher Walker, Jessica Ludwig, Juan Pablo 
Cardenal, Jacek Kucharczyk, Grigorij Meseznikov, and Gabriela 
Pleschova, ``Sharp Power: Rising Authoritarian Influence,'' 
International Forum for Democratic Studies, National Endowment for 
Democracy, December 2017. https://www.ned.org/wp-content/uploads/2017/
12/Sharp-Power-Rising-Authoritarian-Influence-Full-Report.pdf
    <SUP>xi</SUP> Christopher Walker and Jessica Ludwig, ``The Meaning 
of Sharp Power: How Authoritarian States Project Influence,'' Foreign 
Affairs, Nov. 16, 2017. https://www.foreignaffairs.com/articles/china/
2017-11-16/meaning-sharp-power
    <SUP>xii</SUP> Ellie Bothwell, ``Chinese power `may lead to global 
academic censorship crisis,' '' Times Higher Education, December 7, 
2017. https://www.timeshighereducation.com/news/chinese-power-may-lead-
global-academic-censorship-crisis
    <SUP>xiii</SUP> Christopher Walker, Jessica Ludwig, Juan Pablo 
Cardenal, Jacek Kucharczyk, Grigorij Meseznikov, and Gabriela 
Pleschova, ``Sharp Power: Rising Authoritarian Influence,'' 
International Forum for Democratic Studies, National Endowment for 
Democracy, December 2017. https://www.ned.org/wp-content/uploads/2017/
12/Sharp-Power-Rising-Authoritarian-Influence-Full-Report.pdf
    <SUP>xiv</SUP> Shanthi Kalathil, ``Beyond the Great Firewall: How 
China Became a Global Information Power,'' Center for International 
Media Assistance, March 2017. https://www.cima.ned.org/wp-content/
uploads/2017/03/CIMA-Beyond-the-Great-Firewall_150ppi-for-web.pdf
    <SUP>xv</SUP> Simon Denyer, ``Apple CEO backs China's vision of an 
`open' Internet as censorship reaches new heights,'' The Washington 
Post, December 4, 2017. https://www.washingtonpost.com/news/worldviews/
wp/2017/12/04/apple-ceo-backs-chinas-vision-of-an-open-internet-as-
censorship-reaches-new-heights/?utm_term=.51bcf207a356
                                 ______
                                 
                                 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 

 Prepared Statement of Hon. Marco Rubio, a U.S. Senator From Florida; 
         Chairman, Congressional-Executive Commission on China

                           december 13, 2017
    Good morning. This is a hearing of the Congressional-Executive 
Commission on China. The title of this hearing is ``The Long Arm of 
China: Exporting Authoritarianism with Chinese Characteristics.''
    We will have one panel testifying today. The panel will feature:
        <bullet>  Shanthi Kalathil: Director of the International Forum 
        for Democratic Studies at the National Endowment for Democracy 
        (NED);
        <bullet>  Glenn Tiffert, Ph.D.: expert in modern Chinese legal 
        history and visiting fellow at Stanford University's Hoover 
        Institution;
        <bullet>  Sophie Richardson, Ph.D.: Director of China Research 
        at Human Rights Watch.
    Thank you all for being here.
    Before we move to the topic at hand, I want to take a moment to 
recognize Ms. Deidre Jackson on the Commission's staff. After 38 years 
of government work, including nearly 16 years at the Commission, this 
is her final hearing before retiring at the end of the year. We thank 
her for her faithful service and contribution to this important work.
    The focus of today's hearing is timely. This is an issue that 
merits greater attention from U.S. policymakers. Chinese government 
foreign influence operations, which exist in free societies around the 
globe, are intended to censor critical discussion of China's history 
and human rights record and to intimidate critics of its repressive 
policies. Attempts by the Chinese government to guide, buy, or coerce 
political influence and control discussion of ``sensitive'' topics are 
pervasive and pose serious challenges to the United States and our 
like-minded allies.
    The Commission convened a hearing looking at China's ``long arm'' 
in May 2016--the focus at that time was on individual stories from 
dissidents and rights defenders, journalists and family members of 
critics of the regime who shared alarming accounts of the intimidation, 
harassment, pressure and fear they felt as a result of their work. This 
was especially true for those with family still living in China. These 
issues persist.
    Just recently, Chinese authorities reportedly detained around 30 
relatives of the U.S.-based Uyghur human rights advocate Rebiya 
Kadeer--a frequent witness before this Commission. We'll no doubt hear 
similar accounts when Dr. Richardson explores some of what Human Rights 
Watch documented in its recent report on China's interference in United 
Nations human rights mechanisms.
    Beyond that, we hope today to step back from individual accounts 
regarding China's long arm and examine the broader issue of Chinese 
Communist Party influence around the world. What animates their 
efforts? What is their ultimate aim? What sectors or institutions are 
most vulnerable? And what can we do about it? Given the scope of the 
issue, we will only begin to scratch the surface.
    When examining these foreign influence operations it is important 
that we understand the Communist Party infrastructure that exists in 
support of this endeavor.
    The United Front Work Department (UFWD) is one of the Party's 
agencies in charge of influence operations at home and abroad. Chinese 
President Xi Jinping elevated the UFWD's status in 2014, calling their 
work the ``magic weapon'' for the ``Chinese people's great 
rejuvenation.'' The UFWD is charged with promoting a ``positive'' view 
of China abroad and exporting the purported benefits of its 
authoritarian model.
    United Front officials and their agents, often operating under 
diplomatic cover as members of the Ministry of Foreign Affairs, develop 
relationships with politicians and other high-profile or up-and-coming 
foreign and overseas Chinese individuals to, in the words of Wilson 
Center Global Fellow Anne-Marie Brady, ``influence, subvert, and if 
necessary, bypass the policies of their governments and promote the 
interests of the CCP globally.'' A key element in these ``long arm'' 
efforts has focused on information technology and Internet governance 
or ``sovereignty,'' asserting national control of the Internet and 
social media platforms not only in recent domestic cyber legislation 
and development plans but also at international gatherings.
    We look forward to Ms. Kalathil's testimony, which will further 
explore this important dimension of the Chinese government's efforts.
    China has developed tools to surveil social media and mobile phone 
texting platforms, and to disrupt overseas websites that contain 
content the government deems politically sensitive. Earlier this year 
it was reported that ``real-time'' censorship of instant messaging 
platforms is now taking place.
    Private group chats are censored without users' knowledge. As it 
relates to China's ``long arm,'' the University of Toronto's Citizen 
Lab--a human rights and information technology research center--
reported in mid-January 2017 on Chinese government censors' work to 
prevent Tibetans inside and outside of China from discussing the Dalai 
Lama's major religious teaching in India in January 2017.
    The Chinese government is also clearly targeting academia. The 
Party deems historical analysis and interpretation that do not hew to 
the Party's ideological and official story as dangerous and threatening 
to its legitimacy. Recent reports of the censorship of international 
scholarly journals illustrate the Chinese government's direct requests 
to censor international academic content, something which Professor 
Tiffert will address.
    Related to this, the proliferation of Confucius Institutes, and 
with them insidious curbs on academic freedom, are a major concern--an 
area which CECC Cochairman Smith has been sounding the alarm on for 
some time.
    Chinese foreign investment and development, which is slated to 
reach record levels with the Belt and Road Initiative, is accompanied 
by a robust political agenda aimed in part at shaping new global norms 
on development, trade and even human rights. There is much more that 
has been publicly reported on in the last few months alone, and even 
more that we will likely never know:
    <bullet>  The academic whose scholarly paper provides background on 
the banned China Democracy Party or other politically sensitive issues 
refused a visa to conduct research in China;
    <bullet>  The Hollywood studio that shelves the film script with a 
storyline involving China's abuse of the Tibetan people;
    <bullet>  The Washington ``think tank'' that puts out policy papers 
critical of legislative initiatives that would negatively impact the 
Chinese government, all the while never revealing their financial ties 
with senior Chinese officials; or
    <bullet>  The American internet company willing to censor content 
globally in order to obtain access to the Chinese market.
    There are endless scenarios. And there is a growing body of 
important research on the topic.
    Without objection, we'll keep the hearing record open for 48 hours 
to submit some additional relevant materials in that regard, including 
the executive summary of an important report by the National Endowment 
for Democracy, ``Sharp Power: Rising Authoritarian Influence,'' which 
outlines in part China's influence operations in young democracies 
including two in our own hemisphere in Latin America.
    Each year, the Commission releases an Annual Report which 
painstakingly documents human rights and rule of law developments in 
China. China's Great Firewall, rights violations in ethnic minority 
regions, harassment of rights defenders and lawyers, suppression of 
free speech, onerous restrictions on civil society--these are the 
shameful markings of an authoritarian, one-party state.
    But to the extent that the same authoritarian impulses animate the 
Chinese government's efforts abroad, it directly threatens our most 
deeply held values and our national interests. Chinese leaders are 
engaged in the long game and it is something that policymakers in the 
U.S. and like-minded allies must take seriously.
    Please join me in welcoming our witnesses Ms. Shanthi Kalathil, 
Director of the International Forum for Democratic Studies at NED, Dr. 
Glenn Tiffert, a visiting fellow at Stanford University's Hoover 
Institution and Dr. Sophie Richardson, China Director of Human Rights 
Watch.
                                 ______
                                 

  Prepared Statement of Hon. Christopher Smith, a U.S. Representative 
  From New Jersey; Cochairman, Congressional-Executive Commission on 
                                 China

                           december 13, 2017
    This hearing is the second in a series looking at China's foreign 
influence operations and the impact on universally recognized human 
rights. With the Congress and U.S. public focused on Russian influence 
operations, Chinese efforts have received little scrutiny and are not 
well understood. This must change.
    Attempts by the Chinese government to guide, buy, or coerce 
political influence, control discussion of ``sensitive'' topics, and 
export its authoritarian practices globally are widespread and 
pervasive.
    Long-time allies Australia, New Zealand, and Canada have been 
rocked by scandals involving Chinese sponsored influence operations 
targeting politicians, businesses, and academic institutions. Australia 
in particular is in the midst of a national crisis and all like-minded 
democratic allies should be supporting their efforts to root out those 
elements intended to corrupt or co-opt Australian political and 
academic institutions.
    All countries pursue soft power initiatives to promote a 
``positive'' global image and build good will, but the Chinese 
government's use of technology, coercion, pressure, and the promise of 
market access is unprecedented and poses clear challenges to the 
freedoms of democratic societies.
    An example of Chinese rewards given to companies and individuals 
for abiding by the Chinese government's rules is the case of publisher 
Springer Nature, the world's largest academic book publisher. Springer 
Nature removed more than 1,000 articles from the websites of the 
``Journal of Chinese Political Science'' and ``International Politics'' 
in order to comply with China's censorship directives and was later 
``rewarded'' for its censorship by signing a lucrative strategic 
partnership with the Chinese tech giant Tencent Holdings.
    In addition to academic publishers, the Chinese government is going 
to school on college and universities. American institutions are being 
seduced by the promised infusion of much-needed wealth from China. But 
one always has to pay a price--play by China's rules, don't ruffle 
feathers and don't discuss or write about ``sensitive'' topics. 
Universities committed to academic freedom are bound to run into 
problems eventually.
    I have held two hearings on the threat to academic freedom posed by 
Confucius Institutes and the creation of U.S. campuses in China. We 
should all be for creative research partnerships and expanding 
educational opportunities for U.S. students, but not at the cost of 
fundamental freedoms. I have asked the Government Accountability Office 
(GAO) to investigate academic partnerships between the U.S. colleges 
and the Chinese government. The first report came out last Spring.
    The GAO is now in the process of conducting investigations of 
Confucius Institutes. I have written to all U.S. colleges with 
Confucius Institutes and asked them to make their contracts public and 
available for public inspection.
    Many foreign businesses in China have already faced similar 
dilemmas. Some, like Apple, which recently removed from its Chinese app 
store applications that help users bypass China's ``Great Firewall.'' 
The networking site LinkedIn agreed to censor content and Facebook is 
promising to do the same in order to get access to the Chinese market.
    Chinese operations to curtail the activities of dissidents and 
critics of the Communist Party are also pervasive, troubling, and must 
be stopped. We have heard multiple stories from U.S. citizens and 
foreign nationals living in the U.S. about efforts to intimidate, 
censor, and silence them.
    The case of Chinese billionaire Guo Wengui is just the latest 
example of egregious behavior. High-ranking Chinese security ministry 
officials, in the U.S. on transit visas no less, met with Mr. Guo 
multiple times in order to threaten and convince him to leave the U.S.
    Chinese agents have repeatedly violated U.S. sovereignty and law 
according to the Wall Street Journal report on the incident. These 
incidents and those we will discuss today are just the tip of the 
iceberg.
    The Commission's 2017 Annual Report contains several 
recommendations to counter Chinese foreign influence operations--
including expanding the mandate of the Foreign Agents Registration Act 
(FARA) to include Chinese government media organizations and think 
tanks, expanded Internet Freedom initiatives and efforts to counter 
Chinese propaganda and disinformation at the State Department. I 
encourage those interested to look at our recommendations.
    As we start to grapple with the scale and scope of Chinese 
influence operations, we will be looking for new legislative ideas and 
I hope our witnesses today can provide recommendations for the 
Commission's action.
    We must be clear from the outset that we support better relations 
with the people of China and the United States. The issues we are 
discussing here today are part of influence operations conducted by the 
Chinese Communist Party and the Chinese government.
    President Xi Jinping, who has concentrated more power than any 
Chinese leader since Mao, is determined to make the world safe for 
authoritarianism. Beijing is intent on exporting its censorship regime, 
intimidating dissidents and their families, sanitizing history, and 
stifling critical discussion of its repressive policies.
    These actions pose direct threats to deeply held core values and 
fundamental freedoms enjoyed by all democratic societies. We must find 
ways to effectively and resolutely push back. Doing so should be a 
critical national interest.

                  Questions and Answers for the Record

question for shanthi kalathil, director of the international forum for 
   democratic studies at the national endowment for democracy, from 
                             senator daines
    Question. Ms. Kalathil, in your testimony, you reference a study 
that highlights the Chinese government posting over 400 million social 
media comments annually in an effort to influence political narratives 
and advance their interests. Chinese official media organizations have 
also bought space in U.S. and foreign newspapers to convey Beijing's 
preferred narrative on various issues. How effective are these Chinese 
government-sponsored efforts in shaping political discourse in foreign 
countries?
    Answer. My impression is that official media efforts, such as the 
``China Watch'' inserts in the Washington Post and other newspapers, 
have not been hugely successful to date in influencing attitudes in 
other countries. Yet this is not the only strategy, or even the primary 
strategy, upon which the CCP relies to shape discourse. The Chinese 
government has invested truly vast resources and demonstrated serious 
commitment at the highest political levels to influencing the media and 
information space globally, focusing on what might be called the 
``infrastructure'' of communication--not simply the pipes, but the 
nodes that shape and control how information flows around the world. 
This is accomplished through partnerships with foreign media companies; 
cultivating close or beneficial relationships with influential people/
institutions in other countries (including academic publishers, 
entertainment companies, political actors and others) who have the 
power to proactively shape discourse in favor of Beijing or marginalize 
discourse that it considers troublesome; and exerting influence over 
the governance of communication at the ITU and other international 
forums.
                                 ______
                                 
questions for shanthi kalathil, director of the international forum for 
   democratic studies at the national endowment for democracy, from 
                             chairman rubio
    Question. As Chinese researchers continue to make technological 
advances that enable authorities to expand their surveillance powers, 
rights advocates worry that artificial intelligence is being used to 
carry out state suppression and erode privacy protections for Chinese 
citizens. Chinese security officials have made use of artificial 
intelligence, such as facial recognition technology and drones, to 
surveil and police individuals, particularly in the Xinjiang Uyghur 
Autonomous Region and Tibetan areas of China. At the Fourth World 
Internet Conference held in eastern China in early December, which was 
attended by Apple chief executive Tim Cook and Google chief executive 
Sundar Pichai, Chinese companies put such technology on full display. A 
Chinese anti-terrorism expert who spoke at a panel on terrorism at the 
conference described groups that speak out on behalf of Uyghur rights 
as terrorists, and said the Chinese government should try to push 
Twitter to change its terms of service to counteract such groups.
    <bullet>  As American companies and individuals engage with Chinese 
counterparts in cooperation on Internet forums and investment in 
artificial intelligence, what steps can the U.S. Government take to 
ensure that American companies adhere to the principles of free 
expression and avoid enabling mechanisms used by the Chinese state to 
repress its citizens? How can American Internet and technology 
companies stick to longstanding commitments to open communications 
while seeking to expand online forums in China?
    Answer. The international community has long assumed that American 
technology companies will by virtue of their very provenance promote 
and defend principles of free expression and avoid enabling repression 
when operating overseas. Sadly, this has not necessarily proven true in 
many cases, although there are instances in which companies have 
proactively taken steps to provide transparency about their actions 
(such as Google's transparency reports that highlight when governments 
have asked information to be removed from searches). These assumptions, 
then, need to be re-examined, such that these companies are directly 
asked about repression-enabling practices and strongly encouraged to 
voluntarily adopt more rigorous principles that hew to democratic norms 
when operating overseas. Such an effort occurred in the aftermath of 
the famous Yahoo! case in 2003, in which the company provided 
information to the Chinese authorities that led to the jailing of pro-
democracy writers Wang Xiaoning and Shi Tao. While the subsequent 
establishment of the Global Network Initiative and other initiatives 
has led to positive movement in this direction, the current moment 
requires reinvigorated attention to these issues and a renewed broader 
effort to hew to democratic principles.

    Question. Do you believe that a World Trade Organization dispute 
could be successfully used to challenge the Chinese government's 
discrimination against U.S. technology and media companies?
    Answer. While such remedies have been proposed in the past, to date 
they have not achieved significant progress. It is possible that 
renewed attention to this angle might result in greater success but 
only if the companies themselves also believe that this approach is 
worth the time and effort.

    Question. In your written testimony you mentioned the expanding 
network of Confucius Institutes around the world, including here in the 
United States, which, as you noted, are controversial at least in part 
because of ``their lack of transparency, disregard of key tenets of 
academic freedom, and ability to function as an arm of the Chinese 
state within academic campuses.'' What do you view as the greatest 
challenge posed by Confucius Institutes? Is greater U.S. Government 
oversight needed of Confucius Institutes?
    Answer. My view of the challenge posed by the Confucius Institutes 
is best summarized by a 2014 statement by the American Association of 
University Professors, which noted the CI role in advancing ``a state 
agenda in the recruitment and control of academic staff, in the choice 
of curriculum, and in the restriction of debate.'' At the very least, 
the simple prospect of greater oversight of Confucius Institutes might 
compel universities to be more forthcoming about the agreements signed 
with such institutions. There has only been one comprehensive report 
about the impact of Confucius Institutes within the U.S., and its fact-
finding was hampered by an unwillingness on the part of universities to 
discuss their relationships with Confucius Institutes. Drawing 
attention to these issues in a public way might open up more debate and 
transparency, which would allow greater scrutiny and thus assessment of 
the true extent of the challenge. If, as CI supporters contend, these 
institutions serve an essentially benign cultural function, then they 
should welcome this transparency.

    Question. What can the U.S. Government do to overcome challenges 
from Chinese United Front organizations and activities that seek to co-
opt U.S. interests in favor of Chinese political and economic 
interests?
    Answer. In all democracies, a range of tools should be brought to 
bear for making transparent foreign government efforts that weaken 
democratic institutions. In this way, neither China nor any other 
country need be singled out, but merely held to the same standard as 
all others. The challenge with United Front activities is that they 
have been largely mischaracterized (or ignored) from the beginning and 
have thus escaped scrutiny.

    Question. You suggested that certain industries (publishing, 
academia, film, technology, etc.) ought to band together to establish 
agreed-upon informal norms and ``good practice.''
    <bullet>  Are you aware of efforts already underway in that regard?
    <bullet>  What role, if any, can policymakers play in facilitating 
or supporting such efforts?
    Answer. Within academia, some are already calling for voluntary 
adherence to common democratic principles in such areas as academic 
publishing. Such efforts should be lauded and supported, as they face 
resistance from institutional structures conditioned to seek resources 
where they can. Within the context of the private sector, the Global 
Network Initiative is one effort providing a framework for 
international technology and telecommunications companies that is 
rooted in international standards, while also instilling a measure of 
accountability (through regular independent assessments performed as a 
condition of membership). It came about as a direct result of 
Congressional inquiry into the human rights implications of technology 
companies operating in China. While some may say that the GNI does not 
go far enough, it is one example of a voluntary process that seeks to 
implement some adherence to widely agreed human rights principles. 
There are other examples from the corporate social responsibility/
business and human rights communities that may also be useful for 
entertainment companies and other private firms grappling with these 
challenges. Consistent attention to these issues by Congress serves as 
a useful impetus for such initiatives.
                                 ______
                                 
 questions for sophie richardson, director of china research at human 
                   rights watch, from chairman rubio
    Question. The United Front Work system is not just about shaping 
the message or mobilizing friends, but also controlling the terms of 
engagement for how foreigners engage China and the Chinese Communist 
Party.
    <bullet>  How can the United States better protect and educate its 
citizens, including students, businesses, non-profit organizations, 
Congressional employees, and other government staff at local, state, 
and national levels against Chinese influence operations that seek to 
shape attitudes and perceptions according to Chinese national 
interests?
    <bullet>  How can the United States regain and maintain control of 
shaping the terms of engagement for U.S.-China bilateral relations in 
light of United Front operations? What are some mechanisms and tactics 
the U.S. Government can employ?
    <bullet>  How can local governments, civil society groups, and 
academic institutions counter Chinese United Front Work operations at 
local levels?
    Answer. A pressing priority for the U.S. and other democratic 
governments is to thoroughly assess the ways in which human rights are 
threatened by China's growing influence: are naturalized U.S. citizens 
from China being threatened in the U.S. by mainland officials? Are 
American universities changing their minds about commencement speakers 
on their campuses because those individuals are disliked by Beijing? 
Are local, state, or federal government agencies engaging with Chinese 
government officials who have been responsible for serious human rights 
violations in the mainland? An honest assessment would serve three 
purposes: (1) to provide an accurate picture of the nature and scope of 
national and local vulnerabilities, (2) to direct attention and 
resources to protecting those areas, and (3) to acknowledge that 
achieving this kind of influence is an explicit goal of the Chinese 
government and Chinese Communist Party. Such a study could be carried 
out at the request of the Senate Foreign Relations Committee or other 
congressional bodies, and should include input from a variety of U.S. 
government sources, ranging from law enforcement to education 
officials, and drawing on federal, state, and local disclosure 
mechanisms.
    Legislators at the state and federal level should consider various 
responses: if, for example, public universities are accepting Confucius 
Institutes because they lack other resources for Chinese-language 
instruction, education authorities should recognize the risks to 
academic freedom and the institution's reputation and consider other 
budgetary solutions. Government officials who have any engagement with 
Chinese state or Communist Party entities could be required to disclose 
that information on a monthly or quarterly basis, with a view towards 
publishing it to promote greater transparency about those interactions. 
Congressional committees or bodies, such as the Congressional Executive 
Commission on China, could offer training seminars on the United Front 
Work Department, the International Liaison Department, friendship 
associations, and other Chinese state or Party agencies.
    With respect to reshaping the terms of engagement, we recommend 
that you consider the tactics outlined in my recent article ``How to 
Deal with China's Human Rights Abuses.'' It is of concern to Human 
Rights Watch that the current administration's overhaul of bilateral 
dialogues appears to relegate human rights to the margins; we urge that 
human rights be built into all bilateral dialogues implicating rights 
concerns, including law enforcement, counter-terrorism, and academic or 
``people to people'' exchanges. We also strongly urge greater outreach 
by all branches of government to independent Chinese voices; there are 
now dozens of Chinese lawyers, scholars, and experts on all manner of 
topics who are outside China and independent of Beijing.

    Question. United Front-affiliated organizations, such as the China-
U.S. Exchange Foundation and its domestic partner organizations, seek 
to actively lobby Congress and influence Congressional staff as well as 
state and local government officials through exchanges.
    <bullet>  How can the U.S. Congress better educate its staffers on 
lobbyists or ``people-to-people'' exchange opportunities sponsored by 
United Front-affiliated organizations, such as the China Association 
for International Friendly Contact (CAIFC), that seek to actively 
promote the Chinese Communist Party's political agenda?
    <bullet>  What can the U.S. Government do to overcome challenges 
from Chinese United Front organizations and activities that seek to co-
opt U.S. interests in favor of Chinese political and economic 
interests?
    <bullet>  In your sphere of work, how have you encountered United 
Front-affiliated organizations or efforts, and to what extent should 
the U.S. Congress and Government be concerned about actively guarding 
against these efforts?
    Answer. Individual members, the Senate Foreign Relations Committee 
and House Foreign Affairs Committee, the two China commissions, and the 
U.S.-China Working Group could provide seminars and other educational 
opportunities to their staff members regarding different Chinese 
influence agencies, and limit their ability to take money from or 
participate in activities sponsored by those groups, particularly with 
respect to travel to China. U.S. officials could be required to provide 
information regarding the nature of overtures from those agencies, 
their frequency, and who has responded positively to them could be 
published on an at least quarterly basis. Such knowledge and reporting 
requirements may significantly alter the scope of Beijing's efforts.
    The U.S. could also strengthen support to and increase funding for 
domestic programs and institutions that the Chinese government seeks to 
influence. For example, state and local authorities could increase 
funding to public schools and universities' Chinese language programs 
and China studies departments, and provide grants to ethnic Chinese 
civil society groups that are independent and self-organized, and 
support independent Chinese-language media.

    Question. Last week, on December 7, the Chinese government hosted a 
``south-south'' human rights forum, during which Chinese officials 
claimed the benefits of China's ``human rights development path with 
Chinese characteristics.'' Can you discuss what this ``model'' consists 
of, and whether it meets the international human rights standards 
established by UN human rights instruments?
    Answer. China's ``model'' falls far short of established 
international human rights standards in several critical respects. 
First, it explicitly prioritizes state sovereignty over rights of the 
individual, and has been advanced at a time when China increasingly 
rejects the universality of human rights. This model would leave 
individuals living under abusive governments with no recourse to 
independent courts or institutions, like the UN's human rights 
mechanisms. Second, it explicitly prioritizes economic and social 
rights, particularly a vaguely worded ``right to development,'' over 
civil and political rights, effectively making the acquisition of an 
undefined level of development the precursor to consideration of rights 
like freedom of expression, association, peaceful assembly, or 
political participation. Third, rather than welcoming a broad, organic 
process of improving human rights in a given country, the model clearly 
puts the state at the center of these discussions, leaving little room 
for independent civil society to play a role other than the one the 
state explicitly allows.
    Lastly, as the final article of the December 2017 concluding 
statement makes clear, there is no room for established international 
human rights law in this model but rather vague, easily manipulated 
standards: ``In terms of human rights protection, there is no best way, 
only the better one. The satisfaction of the people is the ultimate 
criterion to test the rationality of human rights and the way to 
guarantee them. It is the responsibility of governments to continuously 
raise the level of human rights protection in accordance with the 
demands of their peoples.''
    Question. The Human Rights Watch Report mentions a resolution 
proposed by China at a June 2017 Human Rights Council session that 
asserts the ``importance of development in human rights.'' This 
resolution was adopted by a vote of 30 to 13. Why is the language of 
``development'' critical to China's definition of human rights? Will 
the adoption of this language have any long-term impact on the Human 
Rights Council's work?
    Answer. China emphasizes development as a human right because it is 
the issue on which Beijing thinks it can most clearly demonstrate 
progress--longer life expectancy, higher per capita income, and 
millions of people lifted out of poverty. To the extent these are 
demonstrably true, they are of course laudable achievements, yet China 
consistently omits discussion of the less positive aspects of its 
economic development strategy, including rampant pollution, the 
appalling phenomenon of ``left-behind'' children, or the discriminatory 
hukou system that leaves domestic migrant workers unable to access 
state benefits.
    China's emphasis on development appears to be part of a broader 
strategy to insert its narrative into UN resolutions, promoting 
development and economic, social and cultural rights at the expense of 
civil and political rights, detracting attention from its systemic 
denials of freedom of expression and crackdown on human rights 
defenders and dissenting voices. The U.S., in its explanation of its 
vote on the development resolution, rightly expressed concern that 
China's text quotes key international instruments ``in a selective and 
imbalanced way that often omits key language that fully explains the 
relationship between human rights and development, or changes consensus 
language to materially alter its meaning,'' noting that ``these and 
other distortions of consensus language reinforce the incorrect message 
that development is a prerequisite for states fulfilling their human 
rights obligations--a message that is clearly inconsistent with states' 
commitments reflected in the VDPA [Vienna Declaration and Programme of 
Action].'' The European Union similarly expressed concern that ``the 
draft resolution introduced by China aims to construct an unhelpful 
narrative which would elevate the process of development above human 
rights.''
    We understand that at the upcoming session of the Human Rights 
Council in March 2018, China is proposing a similar initiative focused 
on promoting dialogue and cooperation at the expense of addressing 
serious human rights violations and protecting victims from abuse. It 
is important that states engage in these debates to resist efforts to 
distort the international human rights framework.

    Question. There are 24 UN agencies with a presence in China; the 
Office of the High Commissioner for Human Rights (OHCHR) is not among 
them. Is the resident coordinator (the head of the country team) doing 
enough to help push the Chinese government on human rights, especially 
in light of the non-presence of OHCHR?
    Answer. The current resident coordinator is improving on his 
predecessors' performance with respect to human rights by taking some 
modest steps, including meeting with some human rights activists and 
disseminating information about UN human rights mechanisms such as the 
Universal Periodic Review. Yet, there is a great deal more his office 
could do: ensuring robust discussion of human rights issues in annual 
reports and the UN Development Assistance Framework (UNDAF), which 
typically only make superficial reference to the issue; providing a 
specific and platitude-free assessment of China's human rights 
situation in Chinese government-run discussions such as the December 
2017 ``South-South Forum on Human Rights''; making regular use of the 
UN's ``Rights Up Front'' strategy to convene regular discussions across 
those agencies about human rights developments in China. However, 
taking those steps is not solely a question of an individual resident 
coordinator's inclinations, but equally, if not more, a function of 
thoughtful, consistent support for such an approach at the highest 
levels of the UN. This in turn requires sustained, thoughtful support 
from powerful UN member states such as the U.S.

    Question. Are there realms other than the United Nations, such as 
INTERPOL, where you think there is reason to be concerned about Chinese 
government influence?
    Answer. Human Rights Watch has expressed concern about Interpol's 
ability to uphold its stated commitment to operating according to the 
Universal Declaration of Human Rights under the leadership of Chinese 
Vice-Minister for Public Security Meng Hongwei, who became the 
president of Interpol in November 2016. Human Rights Watch has also 
documented that China--against Interpol regulations--has issued 
politically motivated ``red notices''--alerts seeking the arrest and 
extradition of wanted people--against dissidents and others abroad whom 
China deemed problematic. China's record of arbitrary detention, 
torture, and enforced disappearance, as well as unlawful forced 
repatriation, raise concerns that those subject to Interpol red notices 
from China will be at risk of torture and other ill treatment. Most 
recently we have documented Chinese authorities' subjecting the family 
members in China of ``red notice'' individuals to forms of collective 
punishment--unlawfully punishing someone for the actions of another. 
The authorities have also pressured relatives to travel to the 
countries where red notice individuals live to persuade them to return 
to China. Other Interpol member states such as the U.S. could condition 
some of their financial support to the organization on its demonstrated 
commitment to human rights in its operations.
    Human Rights Watch has also tracked efforts by Chinese state-owned 
enterprises to lower labor standards in Zambia, which has strong laws 
protecting the rights to assembly and association; the sale of and 
training on surveillance technology made by ZTE, a large Chinese 
company, to Ethiopian authorities, who used that technology to repress 
peaceful criticism; and the potential for the Chinese-established Asian 
Infrastructure Investment Bank (AIIB) to replicate abusive practices of 
previous international development banks.
    Human Rights Watch has, since 2014, been researching threats to 
academic freedom outside China but resulting from Chinese government 
pressure. The abuses include: institutionally driven and self-imposed 
censorship to avoid irking Chinese authorities; and threats, 
harassment, and surveillance by Chinese authorities, and in some cases 
by Chinese students and scholars, of one another, and of those seen as 
critical of China. Given the number of mainland Chinese students in the 
U.S., and the positive interest on U.S. campuses in studying China, it 
is imperative that this realm of free expression be protected.
    Question. In May 2017, Human Rights Watch issued a report on a 
nationally searchable DNA database being built by Chinese police. Human 
Rights Watch raised concerns over a lack of meaningful privacy 
protections and a lack of consent for the collection of DNA and other 
personal information, particularly for Uyghurs. A May 2017 report 
published by the scientific journal Nature noted that police in the 
northwest region of Xinjiang had reportedly purchased eight sequencers 
produced by Thermo Fisher Scientific in Waltham, Massachusetts. These 
machines can be used to examine DNA and match DNA samples collected 
from a crime scene with individuals or their relatives listed in a 
database.
    <bullet>  Should U.S. officials be concerned about the sale of this 
type of equipment to Chinese security personnel? What steps, if any, 
should the U.S. Government take to ensure that equipment and technology 
produced in the United States is not transferred to countries where 
they will be used to carry out human rights violations?
    Answer. In follow-up research, Human Rights Watch determined that 
Xinjiang authorities are gathering DNA samples from all residents of 
the region between the ages of 12-65 under the guise of a free public 
health program.
    While Human Rights Watch does not have evidence of complicity in 
human rights violations by Thermo Fisher, its unwillingness to provide 
assurances that it has undertaken thorough due diligence measures to 
ensure that it is not enabling abuses is worrying. The US should, as a 
matter of urgency, undertake a review of all U.S.-based companies 
manufacturing surveillance technology in, and/or selling surveillance 
technology to, China to ensure that existing export control standards 
and ``dual use'' loopholes are not enabling abuses.
    The U.S., including through congressional committees, could also 
convene a panel of experts to focus on surveillance technologies and 
take advice on whether it is necessary to revise export controls.

    Question. The U.S. Embassy and U.S. companies have set up a working 
group to engage with China's Belt and Road Initiative and provide a 
forum for U.S. exporters to introduce their products and services. At a 
forum on the Belt and Road Initiative hosted by the Chinese government 
in Beijing in May 2017, Matthew Pottinger, senior director for Asia at 
the National Security Council, expressed support for the initiative but 
also raised concerns about transparency in the bidding process and 
other issues.
    Answer. Our primary concerns regarding the ``One Belt, One Road'' 
initiative include how the project may further undermine an already 
highly abusive environment in Xinjiang, that many of the Central Asian 
governments involved in the project have poor human rights track 
records, particularly with major infrastructure projects, whether AIIB 
members--even ones with strong protections in place for peaceful 
expression--will tolerate public criticism of China, and whether those 
who protest peacefully against One Belt, One Road projects will be 
allowed an opportunity for meaningful engagement, be ignored, or be 
imprisoned.
    Private companies involved in One Belt, One Road projects should 
recognize they have a responsibility to carry out effective human 
rights due diligence, as outlined in the United Nations Guiding 
Principles on Business and Human Rights. Companies should assess human 
rights risks and take effective steps to mitigate or avoid those risks. 
Companies also have a responsibility to ensure that people who claim to 
experience abuses have access to appropriate remedies. Potential 
financiers, including the World Bank and the Asian Development Bank, 
should keep in mind their own responsibility to respect human rights as 
they invest in One Belt, One Road.
    If all One Belt, One Road participants aspire to respect human 
rights, the project could be truly transformative. But that will 
require dedicated commitment to community consultation, respect for 
peaceful protest, openness to reject or change projects in response to 
community concerns, and genuine commitment to transparency. Many 
participating governments do not seem particularly inclined to respond 
in such a manner to such challenges. Whether higher standards prevail 
should be the key test of One Belt, One Road's long-term impact.

    Question. As American companies, including General Electric, invest 
in projects related to the Belt and Road Initiative, what steps, if 
any, should U.S. officials take to ensure such investment complies with 
international human rights standards? What steps can American companies 
themselves put in place to ensure compliance with human rights norms?
    Answer. See answer above for guidance on the human rights standards 
for corporations.

    Question. Under newly revised implementing regulations for its 
counterespionage law, China's State Council has expanded state powers 
to punish Chinese and foreign individuals for offenses the Chinese 
government deems threatening to its national security or ``social 
stability.'' Under the new rules, Chinese state security authorities 
can bar foreigners from entering China if they are ``likely to engage 
in activities that might endanger national security.'' Foreigners can 
also be prevented from leaving China for a period of time, or can be 
deported for ``harming national security.'' Foreign individuals or 
groups who ``fabricate or distort facts'' can also be penalized. Human 
rights organizations and governments have raised concerns that Chinese 
national security legislation is enabling Chinese authorities to target 
rights advocates and dissidents who criticize the CCP or advocate 
political reform.
    <bullet>  What steps could the United States and other governments 
take to provide protection for Americans engaged in China-related civil 
society, advocacy, and academic work, in order to prevent them from 
potentially being punished under these regulations? How might the 
United States and other countries seek to protect Americans' Chinese 
counterparts from being punished for engaging in peaceful civil 
society, advocacy, or academic efforts?
    Answer. The U.S. government--through the White House, State 
Department, and members of Congress and congressional committees--
should forcefully and publicly speak in defense of this work generally 
and with respect to specific groups and individuals. U.S. officials 
should also regularly remind Chinese authorities of its obligations 
under the Vienna Convention on Consular Relations, particularly in 
light of the ongoing arbitrary detention of European and Taiwanese 
citizens. Doing so not only helps those who have been silenced or 
detained, but is also of assistance to other countries seeking the 
freedom of their nationals.
    The U.S. could also consider funding, through the State Department 
and foundations such as the National Endowment for Democracy, 
innovative work by independent Chinese civil society outside the 
country if doing so in the mainland proves too risky; it could consider 
doing so in collaboration with other like-minded groups. Engaging a 
broad cross-section of Chinese in the U.S.--whether they are U.S.-born 
or naturalized; whether they are scholars or dissidents--will help the 
U.S. push back against the Chinese government's efforts to paint U.S. 
concerns as biased or racist.

    Question. The Commission has followed closely troubling 
developments related to China's relatively new Overseas NGO Management 
Law. We've received anecdotal accounts of U.S. foundations, during the 
application process being asked to provide information to Chinese 
authorities on their activities in the U.S., including research that 
relates to China, despite the fact that none of that research is 
occurring in China, or involves funds or other resources being 
transferred to or within China.
    <bullet>  Have you heard similar accounts?
    <bullet>  What are the implications?
    Answer. We have not heard of such inquiries in the context of the 
FNGO Management Law, but have documented Chinese government inquiries 
about the origins, perceived political affiliations, funders, and other 
details of foreign NGOs in other countries and via the UN's ECOSOC 
accreditation process for NGOs. The net effect of these efforts by 
Beijing is to ensure that even groups working outside China are aware 
that their work is being tracked, and, in the case of seeking ECOSOC 
accreditation, that such status can be delayed for years at a time for 
undertaking work Beijing does not like.

                       Submissions for the Record

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                          Witness Biographies


    The Long Arm of China: Exporting Authoritarianism with Chinese 
                            Characteristics

                           december 13, 2017
    Shanthi Kalathil, Director, International Forum for Democratic 
Studies, National Endowment for Democracy
    Shanthi Kalathil is Director of the International Forum for 
Democratic Studies at the National Endowment for Democracy. Previously 
a Senior Democracy Fellow at the U.S. Agency for International 
Development (USAID) and a regular consultant for the World Bank, the 
Aspen Institute, and others, she has written or edited numerous policy 
and scholarly publications. She co-authored ``Open Networks, Closed 
Regimes: The Impact of the Internet on Authoritarian Rule,'' a widely 
cited work that examined the Internet and authoritarian regimes. She is 
a former Hong Kong-based staff reporter for the Wall Street Journal 
Asia. She lectures on international relations in the information age at 
Georgetown University. She received a B.A. in Communications from the 
University of California at Berkeley and a M.Sc. in Comparative 
Politics from the London School of Economics and Political Science.

    Glenn Tiffert, Ph.D., Visiting Fellow, Hoover Institution, Stanford 
University
    Glenn Tiffert is a visiting fellow at the Hoover Institution at 
Stanford University. From 2015-2017, he was the Distinguished 
Postdoctoral Fellow in Residence at the Lieberthal-Rogel Center for 
Chinese Studies at the University of Michigan. He has taught at UC-
Berkeley, Harvard, UCLA, and University of Michigan. He recently issued 
a paper that identifies systemic digital censorship of essays from two 
prominent Chinese law journals from the 1950s, which has obstructed 
contemporary understanding of the debates about rule of law and 
jurisprudence early in the Communist era. Moreover, the paper 
demonstrates empirically how the increasing reliance by scholars 
outside of China on filtered Chinese databases inadvertently empowers 
the Chinese government to export its domestic censorship mechanisms 
abroad. Professor Tiffert earned his Ph.D. in History from the 
University of California at Berkeley.

    Sophie Richardson, Ph.D., China Director, Human Rights Watch
    Sophie Richardson serves as the China Director at Human Rights 
Watch. A graduate of the University of Virginia, the Hopkins-Nanjing 
Program, and Oberlin College, she is the author of numerous articles on 
domestic Chinese political reform, democratization, and human rights in 
Cambodia, China, Indonesia, Hong Kong, the Philippines, and Vietnam. 
She has testified before the European Parliament and the U.S. Senate 
and House of Representatives. She has provided commentary to the BBC, 
CNN, the Far Eastern Economic Review, Foreign Policy, National Public 
Radio, the New York Times, the Wall Street Journal, and the Washington 
Post. Dr. Richardson is the author of ``China, Cambodia, and the Five 
Principles of Peaceful Coexistence'' (Columbia University Press, Dec. 
2009), an in-depth examination of China's foreign policy since the 1954 
Geneva Conference, including rare interviews with policymakers.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
